<html>
<title> - CLEARWATER BASIN PROJECT ACT, ARAPAHO AND ROOSEVELT NATIONAL FORESTS LAND EXCHANGE ACT; AND HIGHLANDS CONSERVATION ACT</title>
<body><pre>[Senate Hearing 108-531]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-531
               CLEARWATER BASIN PROJECT ACT; ARAPAHO AND 
             ROOSEVELT NATIONAL FORESTS LAND EXCHANGE ACT; 
                     AND HIGHLANDS CONSERVATION ACT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on
                                     
                                 S. 433

    A BILL TO PROVIDE FOR ENHANCED COLLABORATIVE FOREST STEWARDSHIP 
  MANAGEMENT WITHIN THE CLEARWATER AND NEZ PERCE NATIONAL FORESTS IN 
                     IDAHO, AND FOR OTHER PURPOSES

                                S. 1280

A BILL TO DIRECT THE SECRETARY OF AGRICULTURE TO EXCHANGE CERTAIN LANDS 
 IN THE ARAPAHO AND ROOSEVELT NATIONAL FORESTS IN THE STATE OF COLORADO

                               H.R. 1964

 A BILL TO ASSIST THE STATES OF CONNECTICUT, NEW JERSEY, NEW YORK, AND 
PENNSYLVANIA IN CONSERVING PRIORITY LANDS AND NATURAL RESOURCES IN THE 
               HIGHLANDS REGION, AND FOR OTHER PURPOSES.

                               __________

                             MARCH 24, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-830                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman

DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director

                   Judith K. Pensabene, Chief Counsel

               Robert M. Simon, Democratic Staff Director

                Sam E. Fowler, Democratic Chief Counsel

                                 ______

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman

                CONRAD R. BURNS, Montana, Vice Chairman

GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Carolina
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member

                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Borowicz, Susie, Elk City, Idaho.................................    34
Campbell, Hon. Ben Nighthorse, U.S. Senator From Colorado........     4
Cohen, Bonner, Ph.D., Senior Fellow, National Center for Public 
  Policy Research................................................    28
Corzine, Hon. Jon, U.S. Senator From New Jersey..................     7
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Frelinghuysen, Hon. Rodney, U.S. Representative From New Jersey..     9
Gilbert, Thomas A., Executive Director of The Highlands Coalition    25
Johnson, Rick, Executive Director, Idaho Conservation League.....    37
McIntosh, Robert W., Associate Regional Director for Planning and 
  Partnerships, Northeast Region, National Park Service..........    17
Santorum, Hon. Rick, U.S. Senator From Pennsylvania..............     3
Saxton, Hon. Jim, U.S. Representative From New Jersey............    12
Schumer, Hon. Charles E., U.S. Senator From New York.............     6
Tenny, David, Deputy Undersecretary, Natural Resources and 
  Environment, Department of Agriculture.........................    13

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    51

 
                     CLEARWATER BASIN PROJECT ACT, 
ARAPAHO AND ROOSEVELT NATIONAL FORESTS LAND EXCHANGE ACT; AND HIGHLANDS 
                            CONSERVATION ACT

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone. The Subcommittee 
of Public Lands and Forests of the full Committee of Energy and 
Natural Resources will be convened.
    This afternoon we are giving an oversight hearing to H.R. 
1964, a bill to assist four States in conserving priority lands 
in the Highlands region of New York, New Jersey, Connecticut, 
and Pennsylvania; S. 433, a bill to enhance collaborative 
forest stewardship within the Clearwater and Nez Perce National 
Forests in my home State of Idaho; and S. 2180, Senator 
Campbell's Arapaho-Roosevelt National Forest land exchange to 
allow the completion of a city of Golden, Colorado pipeline.
    First and foremost, I want to welcome Congressman 
Frelinghuysen who is with us here to testify on a bill that he 
has worked mightily hard on, H.R. 1964. I understand that 
possibly Senator Specter and Senator Santorum will be joining. 
I know this is an important piece of legislation to your 
constituency, Congressman. I have met with the Congressman, the 
sponsor of H.R. 1964, and would like to make a couple of 
observations and address a couple of issues that I hope our 
witness will be able to speak to today.
    First, I believe this legislation should do a better job in 
describing the boundaries of the lands involved in the 
Highlands area. Senator Corzine has just joined him and will be 
testifying also. I am commenting, at least in the opening 
comments, Senator, on the Highlands bill.
    In my mind, the American public deserves a more refined 
description of the area covered in the legislation. I do not 
think that the language currently used to describe the 
boundaries of the Highlands area, as defined by the Reading 
prong and the ecologically similar, adjacent upland areas that 
encompass more than 2 million acres, is a clear enough 
description for most people of the actual area we seek to 
protect. I want to know how much more than 2 million acres, if 
at all possible, and what ecologically similar, adjacent 
uplands really means.
    I have seen maps from The Highlands Coalition that extend 
the area all the way to the Maryland border and south to 
Gettysburg, Pennsylvania. I hope we will be able to establish 
how large an area we are really talking about.
    Next, I find it very difficult to understand who is 
responsible for nominating the areas to be preserved. In 
section 5, the bill clearly says the areas have to have been 
identified by the Forest Service in the original Highlands 
study and its 2000 update. In the definitions under land 
conservation partnership project, it again indicates that the 
Forest Service has identified projects having high conservation 
values. As near as I can see, the Forest Service has listed 
only potential projects in New York and New Jersey, thus other 
language in section 5 suggesting that the Governors of the four 
States can nominate projects would seem to be in conflict.
    Additionally, I see no areas in Pennsylvania or Connecticut 
that have been identified by the Forest Service in those 
studies. This warrants a bit of elaboration then as to why this 
bill is not limited only, let us say, to the States of New York 
and New Jersey.
    Finally, on H.R. 1964, I see we are going to fund up to 
half of the purchase price of these lands with Federal dollars. 
What I fail to see is any provision that requires or ensures a 
public process that would allow the public or nearby landowners 
to at least comment on the proposed acquisitions and the 
management of those areas after they are acquired. Coming from 
a heavily Federalized State, as I do, where our public land 
managers cannot even build a picnic table without an 
environmental assessment and sometimes an environmental impact 
statement--and that would even include an appeals process--I 
have to wonder why similar language has been left out of the 
legislation. In my mind, the fact that 50 percent of the money 
being used to purchase the land is Federal money does trigger 
that potential concern.
    The public in my State has at least as much interest in 
what is being acquired and how it will be managed. So do the 
folks in New York and New Jersey and Connecticut and 
Pennsylvania who comment on Federal timber sales in my State 
have the same concern about projects in their States? I think a 
reasonable concern.
    To paraphrase the folks who continually demand access to 
Federal management decisions--and I quote. I have heard it too 
often--it is public land and all Americans have a right to 
comment on how it is managed.
    I know this proposal is very, very important to the 
delegation of the States, and I look forward to working with 
you to make this legislation what we can and making it better. 
I want you to hear this: I want to help you get this passed and 
signed into law.
    Let me comment on S. 433, the Clearwater Basin Project Act. 
This bill that I have cosponsored in some ways provides an 
interesting comparison to H.R. 1964. The sponsors of H.R. 1964 
tell me their proposal has broad public support and they do not 
feel they need to encumber their land managers with additional 
environmental processes. In the instance of S. 433, the local 
folks in the Clearwater and Nez Perce National Forests would 
like more input into the decision making process and more input 
into when, where, and how stewardship contracts are undertaken 
in this area as well. These same people have been very 
frustrated by the inability and the unwillingness of the 
Federal land managers to deal with insect, disease, and other 
forest-related issues in central Idaho.
    Thus, I hope that we can work together to help the people 
of New York, New Jersey, Pennsylvania, and Connecticut in H.R. 
1964 and that these delegations will help us and the 
constituents of my State allow a greater part of public input 
and local input into the process.
    Last we are going to take testimony on S. 2180, the 
Arapaho-Roosevelt Land Exchange. This legislation was passed in 
the House of Representatives as H.R. 2766. It was introduced by 
Senator Ben Campbell to my right of Colorado. It facilitates a 
land exchange so that a water pipeline can be completed across 
Forest Service lands, thus allowing the city of Golden, 
Colorado to complete a reservoir project that is badly needed 
by that city. Anytime I see a city giving the Federal 
Government 140 acres in exchange for less than 10 acres, I know 
the city really needs to complete this exchange.
    We are having a prolonged drought in the West and this 
reservoir will increase the city's water storage capacity by 40 
percent if the pipeline can be completed. I hope that we can 
all work together to expedite this bill.
    I would ask the witnesses to limit their oral comments to 
no more than 5 minutes. We will include both your written and 
oral testimony in the official record of the hearing. We will 
keep the record of the hearing open for 10 days and you are 
welcome to send the subcommittee any additional testimony or 
comments you want.
    Now, before I call Senator Corzine and Congressman 
Frelinghuysen before us, let me turn to my colleague from 
Colorado for any statement that he would want to make. And we 
have just been joined by the Senator from New York who is 
interested in the Highlands bill. Ben.
    [The prepared statement of Senator Santorum follows:]

        Prepared Statement of Hon. Rick Santorum, U.S. Senator 
                    From Pennsylvania, on H.R. 1964

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to submit this statement regarding the critical need for 
conserving the natural resources and wildlife habitat of the Highlands 
region, a significant portion of which stretches through Pennsylvania.
    The Pennsylvania Highlands are comprised of more than one million 
acres of unspoiled, mountainous woodland that arc across the most 
densely settled and fastest growing portions of the state. This 
national treasure provides drinking water and recreational 
opportunities for millions of citizens in my commonwealth from the 
areas surrounding Philadelphia, Harrisburg, York, Lancaster, and the 
Lehigh Valley.
    Rivers such as the Delaware, Lehigh, Schuylkill and Susquehanna, 
flowing from the Pennsylvania Highlands region, are naturally filtered 
by this pristine woodland, enabling millions of state residents to have 
access to clean and reliable drinking water. In heavily urbanized 
Southeast Pennsylvania, the Highlands are one of the most important 
wildlife habitat areas that protect a dwindling array of species. The 
Highlands also afford a number of recreational opportunities such as 
hiking along the nationally renowned Appalachian Trail and whitewater 
rafting down the Lehigh River. Superb hunting and fishing opportunities 
also abound in the Highlands area.
    Clearly, preservation of the Highlands region is an important 
conservation initiative. According to the most recent study by the USDA 
Natural Resources Conservation Service, Pennsylvania currently ranks 
fifth in the nation for acreage of rural land that has been converted 
for development. In addition, the Delaware River Basin Commission 
reports that this trend of sprawl endangers a stretch of the watershed 
most vital for maintaining water quality in the Delaware River.
    I have consistently supported conservation efforts that are 
compatible with private property rights. The measure the Committee 
considered today strikes the right balance between protecting a 
significant natural resource and wildlife habitat and addressing the 
concerns of private property owners. I thank the Chairman for holding 
this hearing today, and I urge the Committee to take swift action to 
approve this measure.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Mr. Chairman, I ask unanimous consent to 
submit my complete opening statement for the record and 
abbreviate a little bit, if it is all right.
    This deals with S. 2180. I know that sounds a little 
strange I guess why a city would trade 10 acres for 140-foot 
stretch of ground, but in this case it is an extremely 
important exchange.
    As you mentioned, this bill passed as H.R. 2766 last year. 
We did not do any hearings on it, though, and so I elected to 
reintroduce it this year so that the committee would also be 
aware of the importance of this bill to the city of Golden in 
our State in what looks like is going to be probably the fifth 
year of drought we have had out there.
    In this exchange, the city would receive 10 acres. The city 
needs this land to complete the construction of just a 140-foot 
stretch of pipeline connecting the west fork of Clear Creek 
with a brand new water storage reservoir known as the Guanella 
Reservoir. This reservoir is already complete and sits there 
and has not been filled, obviously because they have not been 
able to get the last little piece of the puzzle so they can 
start storing the water.
    But the legislation is critical. The national forest 
boundary and the authorization is needed from either the Forest 
Service or from Congress to complete that small remaining 
stretch of land, and until that authorization is provided, the 
reservoir is going to remain empty as we move more and more 
toward the summer months. The Forest Service has indicated it 
would take quite some time, possibly years, if they do it 
through their normal process, to authorize the pipeline, and we 
have agreed with them that this land exchange is probably the 
best approach for everybody's needs and timeframes.
    Additionally, I would like to note that while providing the 
city of Golden the ability to finish a critical water storage 
supply, the proposal would also benefit I think the United 
States. In return for the 10 acres it will give up, the Forest 
Service will receive up to 80 acres of land near a popular 
trail and recreation area in Evergreen, Colorado and will also 
receive another 55 acres of land on and near the Continental 
Divide National Scenic Trail in Clear Creek and Summit 
Counties. The 55 acres are located along one of the most 
popular stretches of the trail and is one of the ways hikers 
and other users can access the popular Gray's and Torrey's 
Peaks, two of the most heavily climbed 14,000-foot peaks in our 
State.
    Further, the bill provides that all land values will be 
determined in accordance with the Forest Service appraisal 
procedures, so we will be ensuring that the United States will 
receive full market value for its land.
    In addition, the city is making a donation to the 
Continental Divide Trail lands above which are required. I 
think it is really truly a win-win situation for both the 
Federal Government and the city of Golden, too.
    It is supported not only by the county commissioners of all 
three counties that are involved in the land exchange, but the 
Continental Divide Trail Alliance, which is a nonprofit group, 
the city of Black Hawk Public Works Department, the Georgetown 
Loop Scenic Railway, and numerous other groups. So I think it 
is a very good bill and I look forward to the swift passage of 
it from the committee.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Campbell follows:]

          Prepared Statement of Hon. Ben Nighthorse Campbell, 
                 U.S. Senator From Colorado, on S. 2180

    Mr. Chairman, I am pleased to introduce a bill today that would 
effect a small land exchange to help the City of Golden, Colorado in 
its efforts to augment its water supply, that it might better prepare 
for a resumption of the drought which has plagued our state in the past 
several years. The bill I am proposing would direct that the U.S. 
Forest Service complete a land exchange with the City of Golden at the 
earliest possible date.
    In the land exchange, the City would receive approximately 10 acres 
of National Forest land near Empire, Colorado. The City needs this land 
to complete construction of a 140-foot stretch of water pipeline 
connecting the West Fork of Clear Creek with a brand new water storage 
reservoir, known as the Guanella Reservoir, which the City completed in 
December. The Guanella Reservoir will increase the City's existing 
water storage capacity by approximately 40 percent, and better enable 
it to cope with future water shortages.
    This legislation is critical, because while the Guanella Reservoir 
is now completed, as is the diversion dam, penstock, and all but 140 
feet of the connecting pipelines, the reservoir remains dry. In short, 
the pipeline is completed up to the National Forest boundary, and 
authorization is needed from either the Forest Service or Congress to 
complete the small remaining stretch of pipeline that must cross 
National Forest land. Until that authorization is provided, the 
reservoir is sitting empty, and that is a situation we do not want to 
see continued into the dry summer months. Unfortunately, the Forest 
Service has indicated it would take quite some time (possibly several 
years) to authorize the pipeline, and we have agreed with them that 
this land exchange is the best approach to meet everyone's needs and 
time frames.
    For this reason, I am introducing this important legislation, and 
ask the Committee on Energy and Natural Resources to expedite it in 
every way possible.
    Additionally, I would like to note that while providing the City of 
Golden the ability to finish a critical water storage project, my 
proposal is also a beneficial deal for the United States. In return for 
the 10 acres it will give up, the Forest Service will receive up to 80 
acres of land near--a popular trail and recreation area in Evergreen, 
Colorado, and will also receive 55 acres of land on and near the 
Continental Divide National Scenic Trail in Clear Creek and Summit 
Counties. The 55 acres are located along one of the most popular 
stretches of the Trail, and are one of the ways hikers and other users 
can access the popular Gray's and Torrey's Peaks, two of the most 
heavily-climbed 14,000-foot peaks in our state. Further, my bill 
provides that all land values will be determined in accordance with 
Forest Service appraisal procedures, so we will be insuring that the 
United States will receive full market value for its land. In addition, 
the City is making a donation of Continental Divide Trail lands above 
which are required. I believe this is truly a ``win-win'' situation for 
all concerned, and commend the City for making the additional donation 
to the Forest Service.
    Finally, I would like to note that my proposal has been endorsed by 
the County Commissioners of all three counties that have lands involved 
in the trade, the non-profit Continental Divide Trail Alliance, the 
City of Black Hawk Public Works Department, the Georgetown Loop Scenic 
Railroad, and by numerous others.
    As well, in an encouraging show of unity, this legislation is 
supported by the entire Colorado Congressional Delegation, including 
Senator Allard who is cosponsoring the bill in the Senate, and as 
evidenced by the passing of a similar bill in the House last fall.
    Again, I would recommend this legislation for my colleagues' quick 
approval in order that the City of Golden can get on with its urgent 
needs to supply adequate additional water to its residents this summer.
    I ask that a copy of my remarks be printed in the Record.
    Thank you, and I yield the floor.

    Senator Craig. Senator, before the room filled with people 
today, I paced off the room from this wall to that wall to 
determine its length to try to understand what 140 feet of 
right-of-way is--and that is what we are talking about--for a 
pipeline to be laid, connecting water source with reservoir. So 
we are talking about a distance about twice the length of this 
room. It is going to cost hundreds of thousands, if not 
millions, of dollars of process required under Federal law to 
allow this to happen. Sometimes I agree with Pogo, and for 
those of you who are not familiar with that, he discovered that 
the enemy was himself.
    With that, I will turn to my colleague from New York, 
Senator Schumer.

  STATEMENT OF HON. CHARLES E. SCHUMER, U.S. SENATOR FROM NEW 
                              YORK

    Senator Schumer. I hope there was no intended segue there, 
Mr. Chairman.
    [Laughter.]
    Senator Craig. None whatsoever. Those in New York are, on 
occasion, enlightening. Please proceed.
    Senator Schumer. Thank you, Mr. Chairman, and I want to 
thank you for holding this hearing, and I want to take the 
opportunity to lend my strong support to H.R. 1964, which is 
the Highlands Conservation Act. I want to thank Senator Corzine 
and Congressman Frelinghuysen who have done a great job on this 
issue, as well as the director of The Highlands Coalition, 
Thomas Gilbert, for his hard work and dedication to the cause.
    The Highlands region is an environmentally unique area that 
encompasses more than 2 million acres, extending from eastern 
Pennsylvania through New Jersey and New York to parts of 
Connecticut. It is located within an hour of 25 million 
Americans, forming a greenbelt of forest and farmland in the 
backyard of the Philadelphia, New York, and Hartford 
metropolitan areas. The Highlands play an extremely vital role 
to the region. They provide clean drinking water to over 15 
million people, serve as a home to wildlife habitat for 247 
threatened and endangered species, and 14 million visitors make 
use of the area's recreational resources every year.
    In my State of New York, people are very proud of our open 
spaces and we value the importance of protecting, conserving, 
and restoring areas of great natural and cultural importance. 
The precious resources of the Highlands region, in combination 
with their proximity to the largest metropolitan areas in the 
United States, makes the Highlands nationally significant 
according to the U.S. Forest Service.
    Despite this special status, vital open spaces in the 
Highlands are being lost to suburban sprawl, about 5,000 acres 
annually in the New York-New Jersey Highlands alone. Continued 
population growth and land use patterns in the Highlands region 
not only threatens the availability and quality of water, but 
air quality, forest growth, migration corridors, forest 
habitat, and these result in the loss of recreational 
opportunities and scenic, historic, and cultural resources.
    So, Mr. Chairman, we have to do everything we can to 
prevent the Highlands from being decimated by continued urban 
growth and development. This bill appropriately recognizes the 
serious threats facing the region and seeks to promote the 
conservation of natural resources and priority conservation 
lands within the Highlands region. We have a responsibility for 
protecting and conserving the resources of the Highlands 
region, and unless serious steps are taken soon to protect the 
Highlands, the future will be in jeopardy.
    So with that, Mr. Chairman, I thank you and welcome our 
witnesses today on H.R. 1964.
    Senator Craig. Well, thank you very much, Senator, for that 
testimony.
    Now let us ask our first panelists to come forward, the 
Honorable Jon Corzine, Senator from New Jersey, the Honorable 
Rodney Frelinghuysen, U.S. Congressman from New Jersey. Please 
be seated, gentlemen. Senator, you may proceed.

          STATEMENT OF HON. JON CORZINE, U.S. SENATOR 
                        FROM NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman. I appreciate very 
much your holding this hearing. I have a formal statement which 
I will submit for the record.
    Senator Craig. Without objection, it will become a part of 
the record.
    Senator Corzine. It actually feels and sounds almost as if 
Senator Schumer and I went to the same school of writing with 
regard to subject matter.
    This is a big deal for all of us in all four States. This 
is an incredibly unique property which I think Congressman 
Frelinghuysen and I would both argue is reasonably defined, 
that 2 million acres, within the Forest Service's previous 
studies. There is work afoot to make sure that studies are in 
place in Pennsylvania for certain. Senator Specter has been 
very active in promoting that.
    I will speak formally that there are no forced sales at all 
in this project. So as a consequence, there will be full public 
comment within the context of what is happening, although we 
are very open to working with you, Mr. Chairman, to make sure 
that we address the issues.
    The idea that 14 million visitors and 11 million folks are 
dependent on clean water I really think speaks for itself. It 
is one of the most beautiful areas that still remain on the 
eastern seaboard. Our States are all making commitments to join 
in partnership in this effort. It is a very active issue in New 
Jersey discussions both at the Governor's level and through the 
State legislature.
    So I look forward to the work that will actually allow this 
to come together because I need to be as helpful as my 
colleague, Congressman Frelinghuysen, has been on this. He has 
been a hero on this throughout the 1990's. I am a newcomer to 
this fight. He has done absolutely everything that anyone could 
ever expect in trying to work in a bipartisan way to address 
the issues of concern on the House side and certainly has 
encouraged me to try to reach out in the same way here. He 
really is the leader on this more than anyone with respect to 
trying to bring this to a positive conclusion. I look forward 
to working with him and his staff and yours as well to see if 
we can somehow or another work through the concerns that you 
expressed in your opening statement.
    But we are very pleased. This is truly something that is of 
a bipartisan nature in our communities and one that I think 
will make a very lasting legacy for the millions and millions 
of people in the surrounding area.
    Thank you very much for holding this hearing.
    [The prepared statement of Senator Corzine follows:]

        Prepared Statement of Hon. Jon S. Corzine, U.S. Senator 
                     From New Jersey, on H.R. 1964

    Thank you, Mr. Chairman, for agreeing to hold a hearing today on 
the Highlands Conservation Act. This is important legislation that 
would help protect the open space in the Highlands Forest that runs 
through New York, Pennsylvania, Connecticut and my state of New Jersey. 
I appreciate your willingness to consider the bill seriously, and hope 
we can work together with all the members of the Subcommittee to secure 
its prompt enactment.
    I also want to take this opportunity to express my appreciation to 
Congressman Rodney Frelinghuysen, who successfully secured approval of 
this bill on a unanimous vote in the House of Representatives last 
year. As the Chairman of the House resources Committee, Congressman 
Pombo, has said, Congressman Frelinghuysen's work on this bill provides 
a model of how to get conservation bills passed through Congress in a 
bipartisan way. And it has been a real privilege for me to work so 
closely with Congressman Frelinghuysen on this bill.
    Mr. Chairman, the legislation being discussed today is a modified 
version of S. 999, the highlands Stewardship Act, which I introduced 
last year with the support of my fellow Senators from New Jersey, New 
York, Connecticut and Pennsylvania. The goal of the legislation is to 
preserve one of the last open space treasures in our densely populated 
region, the Appalachian Highlands Forest.
    Mr. Chairman, the Highlands region stretches from northwestern 
Connecticut, across the lower Hudson River valley in New York, through 
my State of New jersey and into east-central Pennsylvania. It 
encompasses more than two million acres of forest, farms, streams, 
wetlands, lakes and reservoirs. It also includes historic sites, such 
as Morristown National Historic Park, where George Washington had his 
headquarters during the American Revolution, and the United States 
Military Academy at West Point.
    Mr. Chairman, the value of the natural, recreational and scenic 
resources of the Highlands cannot be overstated. Highlands aquifers 
provide quality drinking water for over 11 million people. And the 
Highlands provide a home to well over 200 threatened or endangered 
species.
    In addition, the Highlands serve more than 14 million people, who 
visit for recreation. That's more than Yellowstone National Park. One 
in nine Americans live within two hours of the Highlands. 
Unfortunately, these lands are at risk. According to the Forest 
Service, more than 5,000 acres of forest and farm land in the New York 
and New Jersey sections of the Highlands have been lost annually to 
development between 1995 and 2000, and nearly 300,000 acres of land 
critical to future water supplies remain unprotected.
    Mr. Chairman, this legislation is an important step in protecting 
the Highlands. It is modeled after the successful Federal-state 
partnership that was used to protect much of Sterling Forest, a crown 
jewel of the Highlands. The bill calls on the governors of the four 
states to recommend conservation projects within certain threatened 
areas. It also would authorize $100 million over the next ten years for 
easements or acquisition of land within those areas. As in the 
preservation of Sterling Forest, the money would come from the Federal 
side of the Land and Water Conservation Fund.
    Mr. Chairman, the only land to be acquired would be land owned by 
people who want to sell. This amendment would not force anyone to sell, 
nor interfere with any other property right. Nor would the amendment 
interfere with any local zoning ordinance or local government land use 
plan. Nor would it create any new federal ownership or management 
responsibilities. Title to the land or easement purchased would belong 
to the state where it is located.
    In conclusion, Mr. Chairman, the Highlands are a national treasure, 
and it is critical that they be preserved. I hope we can work 
cooperatively to make that happen.

    Senator Craig. Jon, thank you for that testimony. You have 
provided an excellent segue, as we turn to the Congressman. The 
Congressman has aggressively but appropriately pursued me and a 
hearing for this legislation to move it forward, and I 
appreciate his commitment to the project and to the value 
resource as he sees it. So we appreciate your being here and 
look forward to your testimony. Please proceed.

            STATEMENT OF HON. RODNEY FRELINGHUYSEN, 
              U.S. REPRESENTATIVE FROM NEW JERSEY

    Mr. Frelinghuysen. Thank you, Mr. Chairman, for having this 
hearing. I appreciate your keeping your word for setting this 
up. Let me echo, as Senator Corzine has said of me, his 
unparalleled support for the Highlands Conservation Act. It has 
been my pleasure to work with him.
    At the outset, I would like to ask permission to include in 
the record of this hearing a statement from the gentleman from 
New Jersey, Congressman Saxton, a senior member of the House 
Committee on Natural Resources, if that is agreeable.
    Senator Craig. Without objection, that will become a part 
of the record.
    Mr. Frelinghuysen. Mr. Chairman, not to be redundant but 
President Bush's fiscal year 2004 forest legacy budget 
designated, indeed, the Highlands as one of nine national 
priority areas threatened by development, and there is good 
reason for that designation. 5,000 acres on an annual basis are 
being developed in the Highlands region and we need to do 
something and we need to do it soon.
    It has been pointed out that this area affects the high 
quality drinking water for over 15 million Americans and over 
25 million Americans live within an hour's drive of these 
valuable watersheds.
    More important than the numbers, however, is that this bill 
fits into the Bush administration's vision for land 
conservation. In a Nation where the government owns 1 out of 
every 5 acres of land and is responsible for maintaining 1 out 
of every 4 acres, we all need to be aware that operations and 
maintenance costs to the Federal Government have increased 
dramatically, endangering the very assets we all seek to 
preserve.
    Please be assured that this proposal stresses local 
responsibility and public-private partnership. In fact, this 
bill does not call for any Federal ownership, nor does it call 
for any future Federal maintenance and upkeep.
    As Senator Corzine has stated, instead this bill will 
require State and local governments to work with willing 
sellers. There are no strong-arm tactics here. Similar to the 
forest legacy program, the Highlands Stewardship Act only 
provides Federal assistance to willing sellers. In short, this 
bill is seeking a helping hand from the Federal Government 
rather than an over-regulating, strong-armed mandate.
    Local communities, the counties, involved welcome the 
partnership. Not one community, municipality, county, or public 
entity has expressed opposition.
    I should also say that this bill, as has been stated, is 
very important to New Jersey and New York and Connecticut. By 
not providing Federal ownership or future Federal maintenance 
responsibilities and by acquiring land from only willing 
sellers, H.R. 1964 does, indeed, conform to the 
administration's best practices and vision for land 
acquisition.
    I introduced this bill last May with 30 bipartisan 
cosponsors. The bill was the subject of a hearing before 
Chairman Radanovich's subcommittee in June. From that moment 
until passage by the House on November 21, I worked, as I told 
you, with Chairman Pombo and members of his Resource Committee, 
all of whom are highly opinionated on land use issues, to 
address each and every concern they had. In this context, I 
would like to share with you the words of Chairman Pombo on the 
House floor last November, and I quote.

        ``I will tell my colleagues, on any legislation like 
        this in the future that we choose to move through the 
        Committee on Resources, we will use this bill''--he was 
        referring to mine--``as a template, as a way to get 
        things done in a bipartisan way in trying to move 
        forward with a Federal and local partnership in 
        protecting lands that are environmentally sensitive and 
        that are important, but at the same time protecting the 
        property rights of those individual owners, which is 
        something that is extremely important to me.''

    This is important to all of us. This legislation is 
completely consistent with Secretary Norton's four C's, the 
National Park Service's guiding principles: conservation 
through cooperation, consultation and communication. Secretary 
Norton reiterated those principles before my Energy and Water 
Appropriations Subcommittee just this month.
    This is, as Senator Corzine said, a big deal for the States 
of New York, New Jersey, Pennsylvania, and Connecticut. It has 
everything to do with our future in terms of water resources 
and purity and recreational value. We are keen on getting the 
bill moved.
    And we appreciate your genuine commitment to help us work 
through the process to get this bill done, and we would be 
pleased to address all of those issues you raised, including 
the definitions of the boundaries, if we need to tighten those 
up. But to some extent, we are taking some guidance from the 
U.S. Forest Service, which actually expanded this from sort of 
a New Jersey and New York Highlands to include both Connecticut 
and Pennsylvania. So we will be happy to work on the boundary 
issue and any other issues that we can address that would work 
toward your committee's eventual approval.
    Thank you.
    [The prepared statements of Mr. Frelinghuysen and Mr. 
Saxton follow:]

          Prepared Statement of Hon. Rodney P. Frelinghuysen, 
           U.S. Representative From New Jersey, on H.R. 1964

    Good afternoon, Chairman Craig, Ranking Member Wyden, members of 
the Subcommittee, thank you for allowing me this opportunity to testify 
in support of my legislation, H.R. 1964, the Highlands Conservation 
Act.
    (At the outset, I would like to ask permission to include in the 
record of this hearing a statement by the gentleman from New Jersey, 
Mr. Jim Saxton, a senior Member of House Committee on Natural 
Resources.)
    Mr. Chairman, President Bush's Fiscal Year 2004 Forest Legacy 
Budget designates the Highlands as one of nine national priority areas 
threatened by development. There is good reason for this designation.
    The time to act is now! The U.S. Forest Service Study found that 
each year more than 5000 acres of the New York/New Jersey Highlands are 
being developed. From 1990 to 2000, the population within the Highlands 
increased by 11 percent. When you consider that New Jersey is already 
the most densely populated state in the union, this is a significant 
increase.
    While it is not my intention to drop a laundry list of numbers 
highlighting the Highlands importance to the northeast, several 
noteworthy examples are in order:
    According to a US Forest Service Study on the area, the Highlands 
watershed lands contain reservoirs and aquifers that provide and 
protect high quality drinking water for over 15 million Americans.
    Over 25 million Americans live with in an hour's drive of these 
invaluable watersheds, wildlife habitat, and recreation opportunities 
that lie in the roughly 2 million acres that encompass the Highlands.
    More important than these numbers, however, is the fact that this 
bill fits into the Bush Administration's vision for land conservation. 
In a nation where the government owns 1 in every five acres of land and 
is responsible for maintaining 1 out of every 4 acres, we all need to 
be aware that operations and maintenance costs to the Federal 
government have increased dramatically endangering the very assets we 
all seek to preserve and protect.
    Please be assured this proposal stresses local responsibility and 
public/private partnerships. In fact, this bill does not call for any 
Federal ownership, nor does it call for any future Federal maintenance 
and upkeep.
    Instead, this bill would require state and local governments to 
work with willing sellers. Similar to the Federal Forest Legacy 
Program, the Highlands Stewardship Act only provides Federal financial 
assistance for willing sellers. In short, this bill is seeking a 
helping hand from the Federal government rather than an over-
regulating, strong armed mandate.
    Local communities welcome this Federal partnership and 24 towns and 
4 New Jersey Counties have passed resolutions in support of the 
conserving the Highlands' resources. Notably, not one community has 
expressed opposition.
    At the Federal level, along with a large number of our colleagues 
from New York, Connecticut, and Pennsylvania, the entire New Jersey 
delegation has co-sponsored this bill. Thus, this truly is a bipartisan 
effort. The bipartisan spirit exists because the bill provides 
deference to local authority, while recognizing the need for Federal 
assistance to preserve nationally significant natural resources in our 
local forest areas, just as Congress did with a similar collaborative 
state/Federal partnership seven years ago with Sterling Forest.
    In short, this bill is important to New Jersey, New York, 
Connecticut, and Pennsylvania. By not providing Federal ownership or 
future Federal maintenance responsibilities, and by acquiring land from 
only willing sellers, H.R. 1964 conforms to the Bush Administration's 
best practices and vision for land acquisition. As such, I see this 
bill as a victory for the Congress and the President.
    I want to close by reflecting on the path this legislation took in 
the House.
    I introduced this legislation last May with 30 bipartisan 
cosponsors. The bill was the subject of a hearing before Chairman 
Radanovich's Subcommittee in June. From that moment until passage by 
the House on November 21, 1 worked with Chairman Richard Pombo and 
Members of the Resource Committee, the Committee staff and interested 
parties like the National Association of Homebuilders to address each 
and every concern they may have.
    It is in this context that I want to share with you the words of 
Chairman Richard Pombo on the House floor last November:
    Quote: ``I will tell my colleagues, on any legislation like this in 
the future that we choose to move through the Committee on Resources, 
we will use this bill as a template, as a way to get things done in a 
bipartisan way in trying to move forward with a Federal and a local 
partnership in protecting lands that are environmentally sensitive and 
that are important, but at the same time protecting the property rights 
of those individual owners, which is something that is extremely 
important to me.'' Close quote.
    Mr. Chairman, it's very important to all of us.
    This legislation is completely consistent with the four C's 
Secretary Norton has used as the National Park Service's guiding 
principals--Conservation through Cooperation, Consultation and 
Communication. In fact, Secretary Norton reiterated these principals 
before our Energy and Water Appropriations Subcommittee just this 
month.
    With this legislation, we have an opportunity to sustain a genuine 
and critically important partnership between the federal government and 
state governments and local groups, all in the name of preserving open 
space.
    Mr. Chairman, the partnership we seek today is between the House 
and the Senate. In this regard, I respectfully urge your Committee's 
support of H.R. 1964. I thank you for your time. I welcome any 
questions you may have.

                                 ______
                                 
      Prepared Statement of Hon. Jim Saxton, U.S. Representative 
                     From New Jersey, on H.R. 1964

    I am so pleased Chairman Craig, Vice-Chair Burns and Ranking Member 
Wyden, of the Subcommittee on Public Lands and Forests, have agreed to 
hold a hearing on H.R. 1964, The Highlands Conservation Act. My 
colleague, Mr. Frelinghuysen, also of New Jersey, has introduced this 
important piece of conservation legislation.
    I have long been an advocate for, and worked hard to preserve open 
space and prevent the encroachment on and development of significant 
tracts of land in both my district and throughout the State of New 
Jersey.
    I am proud of the fact that New Jersey has been a leader on the 
issue of open space, recognizing the importance of not developing every 
acre of land possible.
    We need areas of undeveloped land, for a wide range of reasons, 
from habitat protection to simply providing areas for people to 
recreate and enjoy the outdoors.
    In Burlington County, which is in my Congressional district for 
example, there are over 162,000 acres of protected land. There is 4,000 
acres of Federally protected land, which is primarily in the New Jersey 
Pine Barrens; 130,000 acres of State-held acres, of which 120,000 is 
also located in the Pinelands; the Municipality has 8,000 acres and the 
County 1,500 acres; 4,000 acres are held by Non-Profit organizations 
and there are over 15,000 acres acquired as Farmland Preservation 
areas.
    This is an impressive number of acres and demonstrates New Jersey's 
ongoing commitment to these important and often fragile lands and 
ecosystems.
    Mr. Frelinghuysen has also recognized this important need, which is 
why he introduced this piece of conservation legislation. The New York/
New Jersey Highlands, consisting of nearly 2 million acres, has been 
identified by the U.S. Forest Service and virtually all other federal, 
state, local and private authorities as critical lands in need of 
preservation.
    This region provides and protects the drinking water supplies for 
over 15 million residents of the New York and Philadelphia metropolitan 
areas. The Highlands region hosts more than 14 million recreational 
visits annually, which is more than Yellowstone and many of our 
national treasures in the West.
    The USDA Forest Service found that over 5,000 acres of land are 
being developed a year in the NY-NJ Highlands alone, threatening the 
quantity and quality of water supplies, and other critical resources in 
the Highlands.
    Currently, 294,000 acres, which is 77% of high-value lands in the 
Highlands are unprotected and 100,000 acres of this high-value land are 
immediately threatened.
    I was pleased this legislation was reported out of the House 
Committee on Resources on October 29, 2003, and I encourage the Senate 
Committee on Energy and Natural Resources to do the same,' to enable 
this legislation to then come before the Full House and Senate and be 
signed into law, thus forever protecting this important area of our 
country.
    Thank you.

    Senator Craig. Well, Congressman, thank you. Senator, thank 
you for your commitment to this legislation. As I said in my 
opening comments, we will work with you to move this 
legislation. This is not just a hearing to hear it. It is a 
hearing from which we can begin to work to refine any of those 
differences we might have, and I think they are limited but 
there are some questions that I had asked early on. I know that 
you and your staff will be forthright in working with us to 
address them. So we thank you very much. Appreciate it.
    Now let me call our first panel, the Honorable David Tenny, 
Undersecretary, Natural Resources, U.S. Department of 
Agriculture, and Robert McIntosh, Associate Regional Director 
of Planning and Partnerships of the Northeast Region, the 
United States Department of the Interior, National Park 
Service.
    Of course, gentlemen, I would expect that you would, 
obviously, address your comments appropriately to the three 
different pieces of legislation that are before us. David, good 
to see you again. Thank you for being here. Please proceed.

   STATEMENT OF DAVID TENNY, DEPUTY UNDERSECRETARY, NATURAL 
      RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Tenny. Thank you, Mr. Chairman. At the outset here, I 
would note that I am joined by Marcus Phelps, who is the 
Highlands Coordinator for the Forest Service's Northeastern 
Area. Marcus and I have an understanding. He is prepared to 
answer all the hard questions. I am prepared to answer all the 
easy questions.
    Senator Craig. Do you want him at the table?
    Mr. Tenny. No, that is fine. I was just going to point out, 
Mr. Chairman, that you will probably be the one to decide which 
are the hard questions and which are the easy ones.
    Senator Craig. We will go to work while you are testifying 
then. All right.
    [Laughter.]
    Mr. Tenny. Mr. Chairman, in the interest of time, let me 
just say in summary that we do not oppose any of these bills.
    I have testified on the Highlands bill in the House and 
could make just a few points about that.
    First of all, this is an area where the Forest Service has 
done a considerable amount of work in the past. There has been 
some progress made. We are working cooperatively with the 
communities and the interests in the region. We have done some 
study in New York and New Jersey. We have work yet to do to be 
more precise in what we are talking about in Connecticut and in 
Pennsylvania. I think that has been pointed out. We are willing 
to work with the committee and the others interests involved in 
working through differences. We have some recommendations of 
our own that we have submitted in the written statement that I 
have submitted for the record. But we are prepared to go to 
work and are certainly interested in helping this process in 
anyway we can.
    With respect to the other two pieces of legislation, 
listening closely to what Senator Campbell said about the 
legislation involving the city of Golden, Colorado, we are 
prepared to help that process move along because it is a very 
reasonable concept in this bill. We are talking about an area 
that has been struck with severe drought. We want to be as 
prepared as we can to be helpful as this legislation moves 
forward and in the preparation that leads up to the enactment 
of the bill.
    And with respect to the bill that addresses a very 
important issue in my home State and yours, let me say also, 
Mr. Chairman, that we are very intent to making things work out 
there. We recognize this piece of legislation as much as the 
policy in the legislation is the message behind the legislation 
that we are hearing loud and clear from the communities that 
surround the Nez Perce and the Clearwater National Forests. We 
are prepared also to work with the committee and work with you 
on this legislation and outside of this legislation to get the 
job done out there on the ground.
    So with that, Mr. Chairman, I will defer the balance of my 
time and be prepared to answer any questions you might have.
    [The prepared statement of Mr. Tenny follows:]

   Prepared Statement of David Tenny, Deputy Undersecretary, Natural 
Resources and Environment, Department of Agriculture, on H.R. 1964, S. 
                            2180, and S. 433

    Mr. Chairman, thank you for the opportunity to appear before you 
today in order to provide the Department's views on H.R. 1964 The 
Highlands Conservation Act, S. 2180 to direct the Secretary of 
Agriculture to exchange certain lands in the Arapaho and Roosevelt 
National Forests in the State of Colorado and S. 433 The Clearwater 
Basin Project Act. I am accompanied today by, Marcus Phelps, Highlands 
Coordinator of the Forest Service Northeastern Area.

                H.R. 1964 THE HIGHLANDS CONSERVATION ACT

    H.R. 1964, the Highlands Conservation Act would authorize the 
Secretary of the Interior and the Secretary of Agriculture to work with 
States, local units of government, and private landowners in the 
conservation of lands and natural resources in the Highlands region of 
Connecticut, New York, New Jersey, and Pennsylvania.
    The Department defers to the Department of the Interior for general 
views on the bill but would like to offer several comments on section 6 
of the bill as well as a brief discussion regarding the Department's 
previous and ongoing work within the Highlands.
    H.R. 1964 directs the Secretary of Agriculture, acting through the 
Chief of the Forest Service and in consultation with the Chief of the 
Natural Resources Conservation Service, to continue to assist the 
Highlands States, local units of government, and private forest and 
farm landowners in the conservation of lands and natural resources in 
the Highlands region. H.R. 1964 would authorize appropriations of 
$1,000,000 to the Secretary of the Agriculture for each of fiscal years 
2005 through 2014 to carry out this section.
    At the direction of Congress, in 1992, the USDA Forest Service 
completed the New York-New Jersey Highlands Regional Study that 
characterized the water resources, wildlife habitat, outdoor recreation 
opportunities, and agricultural resources in the region. This study 
identified lands with important resource values such as the Sterling 
Forest located near Tuxedo, NY.
    At the direction of Congress, the Forest Service updated the New 
York-New Jersey Highlands Regional Study in 2002. The original study 
area was expanded from the Hudson River eastward to the New York-
Connecticut border. The Update identifies a number of many important 
natural resources in the Highlands, and the effect of existing patterns 
of land use change on these resources. SoU1e key findings from the 2002 
Update include:

  <bullet> The Highlands adjoin a metropolitan area of more than 20 
        million people.
  <bullet> More than 11 million people rely on the Highlands water 
        resources.
  <bullet> More than 14 million people visit the Highlands each year 
        for recreational opportunities.
  <bullet> 5,200 acres per year of land was developed between 1995 and 
        2000.
  <bullet> Almost 40 percent, 540,000 acres, are considered to have 
        high conservation value. Nearly half of these lands are 
        currently in some type of permanent conservation arrangement, 
        such as an easement or under a nonprofit land trust holding.
  <bullet> Approximately 100,000 acres considered to have high 
        conservation value have a high likelihood of change.
  <bullet> Forty-two of the 51 existing Hydrologic Unit Code 11 
        watersheds (which have an average area of about 50 square 
        miles) presently have 10 percent or less impervious surface 
        cover (a significant indicator of water quality). Depending on 
        the rate of land use change, the number of Hydrologic Unit Code 
        11 watersheds with less than 10 percent or less of impervious 
        surface cover could fall from 42 to about 9 .to 18 in the next 
        thirty years.
  <bullet> The future population in the New Jersey-New York Highlands 
        could increase by 26 to 48 percent in the next 30 years, based 
        on our analysis.

    In addition to updating the 1992 Study, Congress directed the 
Secretaries of Agriculture and the Interior to jointly develop a set of 
recommendations identifying ways that Federal government can work with 
State, local and non-profit partners to address important resource 
issues, based on the findings of the 1992 Study and 2002 Update. .
    Our efforts to address these findings continue in the New York and 
New Jersey portions of the Highlands region through a Forest Service 
staff position established to coordinate and implement conservation 
strategies, and the ongoing support of an internet mapping system at 
Rutgers University to provide direct access to study data and maps. 
Also, a recent regional meeting held at the Lautenberg Visitor Center 
in what is now the Sterling Forest State Park in Tuxedo, New York, 
brought together, for the first time, representatives of the various 
Federal agencies involved with the Highlands region to share 
information and identify ways to improve inter-agency communication and 
coordination.
    Over the past 10 years, the Forest Legacy program has protected 
3444 acres with $4,200,000 in Federal funds that has leveraged over 
$14,000,000 in non-federal funds in New Jersey and New York. Over the 
last five years, the Forest Legacy program has provided $14,300,000 of 
funding that is expected to protect over 8,700 acres in the New Jersey 
Highlands and to leverage over $32 million of state and private partner 
funds for land conservation. In addition, the Forest Service has 
provided assistance to private landowners, nonprofits and State and 
local governments, through a range of Forest Service non-regulatory, 
cooperative programs of more than $1,000,000 toward land conservation 
activities in those two states. These include technical and financial 
assistance to states and communities and landowner assistance for 
management planning and implementation of conservation practices.
    I want to bring to the Committee some issues that the Department 
has identified with H.R. 1964 that may require further consideration by 
the Committee.
    First, the legislation covers a four-state region. The Department's 
efforts to date have concentrated on the 1.5 million acre New York-New 
Jersey portion of the region, and have only generally characterized the 
resource values and boundaries of the Pennsylvania and Connecticut 
portions of the Highlands. More thorough consideration and inventory of 
the resource values in Pennsylvania and Connecticut is needed. In 
addition, , the committee may wish to consider adding language that 
would direct the Secretaries to prepare a map to delineate the 
Highlands Conservation Area and eliminate any uncertainty regarding the 
area within projects would be eligible for assistance.
    To our knowledge, the bill does not authorize any activity by the 
Forest Service and the Department of Agriculture that is not already 
authorized under current law. USDA could designate the Highlands area 
as a high priority within existing authorities to permit its agencies 
to address resource issues in the Highlands region. The bill's 
targeting of technical assistance, financial assistance, and land 
conservation projects could require USDA to determine the priority of 
these activities relative to other high-priority programs or projects 
that may rely on the same funding source.

  S. 2180 ARAPAHO AND ROOSEVELT NATIONAL FORESTS LAND EXCHANGE ACT OF 
                                  2003

    The Department does not object to S. 2180 but would like to 
recommend some changes to the bill for the Committee's consideration.
    S. 2180 directs the Secretary of Agriculture to exchange to the 
City of Golden, Colorado all right, title and interest in 9.84 acres of 
Federal land within the Arapaho National Forest, upon receipt of 
acceptable title to 135.9 acres of non-Federal land. The 135.9 acres 
consist of two separate parcels, including 80 acres near Evergreen, 
Colorado known as Cub Creek and 55.9 acres near Argentine Pass, 
Colorado known as Argentine Pass. The 55.9 acre Argentine Pass property 
is made of 15 patented mining claims. The bill modifies the exterior 
boundary of the Arapaho National Forest to incorporate the Cub Creek 
parcel.
    The bill requires the exchange values to be equalized. If the non-
Federal parcel market value exceeds the approved market value of the 
Federal land, the values may be equalized by reducing the size of the 
Cub Creek non-Federal parcel or with a cash equalization payment 
without regard to the cash equalization limitation of 43 U.S.C. 
1716(b), as amended.
    If the Federal land market value exceeds the market value of the 
Cub Creek non-Federal parcel, the values shall be equalized by the 
Secretary preparing a statement of value for the Argentine Pass non-
Federal parcel and utilizing as much of such contributory value as is 
necessary as a credit to equalize value. Argentine Pass lands not 
needed to balance the exchange values will be donated to the Forest 
Service. In the event the Secretary declines to accept the Argentine 
Pass lands for any reason, Golden shall make a cash equalization 
payment to the Secretary as necessary to equalize the values of the 
Federal land and the Cub Creek parcel. We recommend that any cash 
equalization funds received be considered money received and deposited 
pursuant to Public Law 90-171 (16 U.S.C. 484(a)), commonly known as the 
``Sisk Act,'' and may be used, without further appropriation, for the 
acquisition of lands for addition to the National Forest System in the 
State of Colorado.
    S. 2180 indicates Congress' intent that the land exchange be 
consummated no later than 120 days after enactment and authorizes the 
City of Golden to construct a water pipeline on the 9.84 acres of 
Federal land immediately upon enactment and prior to the consummation 
of the exchange. We are concerned that we may not be able to complete 
environmental consultation and clearances required for the disposal of 
the federal property in 120 days. We request extending this timeframe 
to 180 days. While we are appreciative of the inclusion of the timing 
and interim authorization clause as described in the bill, we do not 
support construction occurring prior to conveyance of this property to 
the City of Golden. At the very least, we would expect that the City 
would be required to operate under a special use permit as long as the 
property remains in Federal ownership. Our preference is to delay 
construction of the pipeline until the conveyance is completed.
    S. 2180 directs the City of Golden to pay for any necessary land 
surveys and appraisals. Further, the bill authorizes and directs the 
Secretary to sell the Federal land to Golden at its appraised value, if 
the land exchange cannot be consummated for any reason.
    Public interest could also be served by the Arapaho National Forest 
acquisition of the 135.9 acres of non-Federal land. Specifically, the 
acquisition would eliminate a forest inholding, and could: reduce cost 
of forest boundary administration, increase recreation opportunities, 
and ensure permanent public access to a portion of the Continental 
Divide National Scenic Trail. The Department supports the concept of 
the exchange identified in S. 2180 and would like to work with the 
Committee to see this exchange proceed with mutual benefit.
    S. 2180 highlights how detailed legislation is often required to 
conduct land exchanges. The FY 2005 Budget includes a proposal to amend 
the Small Tracts Act, the Sisk Act, and the Townsite Act, which would 
provide the Secretary the authority to sell or exchange land, to 
promote more efficient real estate management of National Forest System 
lands and facilities. The Budget also includes a proposal for a 
Facilities Acquisition and Enhancement Fund that would enable the 
Secretary to sell facilities and appurtenant administrative land, 
excess to agency needs, and to use the proceeds for acquiring or 
developing land and improvements for administrative purposes. The 
Department will submit proposed legislation concerning these proposals 
in the upcoming weeks.

                S. 433 THE CLEARWATER BASIN PROJECT ACT

    S. 433 would establish a pilot program and the Clearwater Advisory 
Panel (CAP), for the purpose of improving collaborative relationships 
and providing advice and recommendations to the Forest Service 
regarding a pilot project and activities under the pilot project on 
National Forest System lands in the Clearwater and Nez Perce National 
Forest in Idaho.
    Under S. 433, the CAP and the Forest Service, working 
collaboratively with the Nez Perce Tribe and other interested parties, 
would identify and complete high priority activities to improve 
ecosystem health for fish, wildlife, and other community values that 
complement existing management of the Clearwater and Nez Perce National 
Forest.
    Based upon experience with collaborative management and stewardship 
projects, the Department believes this legislation generally reflects 
objectives and provisions currently authorized in the Consolidated 
Appropriations Resolution, 2003, amending Public Law 105-277, section 
347. We are not opposed to the measure, but it may add additional costs 
that could in turn reduce the amount of on-the-ground resource 
management that could be accomplished. We would like to work with the 
committee to make necessary improvements to the bill.
    Section 3 Establishment and Purpose subpart (d) Composition and 
Advisory Panel states that the advisory panel shall be comprised of 15 
members who shall be representative of the interests of three 
categories of individuals. While we agree with this purpose, the bill 
is unclear as how the Advisory panel would proceed in the event that 
all fifteen positions could not be filled. In addition, it would appear 
that the North Central Idaho Resource
    Advisory Committee may provide the necessary forum to achieve the 
purpose of establishing collaborative relationships and identifying 
stewardship projects for the pilot project area.
    Section 4 Clear-water Basin Pilot Project subpart (c) Stewardship 
Contracts identifies a total of three stewardship contracts authorized 
for recommendations by the advisory panel. The bill is unclear as to 
whether the identified stewardship contracts are for the entire life of 
the pilot project or for the first five year period.
    S. 433 would require the Forest Service to conduct and complete any 
applicable procedures under the National Environmental Policy Act 
(NEPA) and any review, consultation, or coordination under other laws 
within one year. Non-compliance within the required one-year period 
would not be a basis for challenging or delaying submittal, approval, 
or implementation of an activity, if the applicable Forest Supervisor, 
in consultation with CAP, finds that sufficient review, consultation 
and coordination has occurred and a sufficient record exists to make a 
reasoned decision regarding approval of the activity.
    While setting a required one-year time period for completion of the 
above mentioned analysis and decision making may be appropriate for 
routine proposals brought forward by the CAP, it may not be sufficient 
for other high priority, complex and broader scale ecosystem health 
actions the CAP would propose for analysis. In addition, it would be 
highly unlikely there would be a sufficient record (NEPA analysis, 
Biological Opinions and Consultations to comply with other applicable 
environmental laws) available to make a reasoned decision in the event 
the one-year time period elapsed and insure a defensible decision while 
being subject to the rigors of the agency's appeal and dispute 
resolution processes in accordance with 36 CFR 215.
    Under subsection (g) Review by Forest Supervisor the bill states--
if the Forest Supervisor does not issue a decision within a 30-day 
period, the schedule would be deemed approved and subject to the 
agency's appeal and dispute resolution process. If there is no NEPA 
decision document issued, it is unclear as to what would be subject to 
agency appeal. Environmental analysis is not complete unless a decision 
document has been signed by an authorized official and thus would not 
be in compliance with NEPA or subject to agency appeals and dispute 
resolution processes in accordance with 36 CFR 215.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you may have for me at this time.

    Senator Craig. David, thank you very much. I will have a 
couple of questions, but before that, let me turn to Director 
McIntosh for his testimony, if you would please, sir.

 STATEMENT OF ROBERT W. McINTOSH, ASSOCIATE REGIONAL DIRECTOR 
FOR PLANNING AND PARTNERSHIPS, NORTHEAST REGION, NATIONAL PARK 
                            SERVICE

    Mr. McIntosh. Thank you, Mr. Chairman. I am here to testify 
on H.R. 1964 and not the other bills in front of the committee 
at this time. Thank you for this opportunity.
    The first section of my testimony I do not need to restate. 
It recognizes the Forest Service's studies, and the previous 
testimony with respect to the importance of these resources. 
The Department certainly understands and respects the 
importance of these resources and the need to assist in their 
protection.
    The Department of the Interior looks forward to a 
continuing, productive relationship with the Department of 
Agriculture, the four States, local governments, and many 
present and new partners in the Highlands region to strive to 
protect these resources.
    We do believe, however, that the goal of the bill can best 
be achieved through existing public and private partnerships 
between the Federal Government, State and local jurisdictions, 
and the private sector without earmarking funds from the Land 
and Water Conservation Fund.
    In June 2003, the Department of the Interior testified 
before the House subcommittee. During that testimony, the 
Department indicated that it would defer to the position of the 
USDA who was the lead agency as introduced. We also cited 
concerns about cost and identified a number of existing 
programs that could meet the needs in the Highlands region.
    During markup, H.R. 1964 was amended, including designating 
the Department of the Interior rather than USDA as the lead 
agency relative to the land acquisition grants program.
    For these and other reasons discussed, the Department does 
not support the bill and we would defer to USDA regarding 
provisions of the bill that affect the Forest Service.
    As we mentioned in our previous testimony, we see many 
opportunities for participation in the Highlands region through 
existing programs of the Department of the Interior. Many 
projects within the region may qualify for rivers and trails 
conservation assistance, wild and scenic rivers assistance, 
monies from the Land and Water Conservation Fund, and 
assistance from the existing national park system units within 
the area.
    H.R. 1964 would authorize appropriations of $100 million 
from the Land and Water Conservation Fund or from the general 
fund of the Treasury over a 10-year period beginning in 2005. 
We believe that the financial assistance to the region should 
continue through the existing authorities of the Department. 
For example, the Department has made Land and Water 
Conservation Fund grants available to the four States, totaling 
over $46 million between 2000 and 2003. Through the land and 
water program, various communities throughout the region have 
received grants for various purposes.
    We have consistently opposed earmarking the State grants 
program of the Land and Water Conservation Fund because it 
circumvents State authority for determining its own priorities 
for the use of fund moneys through the Statewide Comprehensive 
Outdoor Recreation Plan. It potentially affects the amount 
available to other States that rely on this program. 
Significant protection can be accomplished through grants to 
the States as they choose to prioritize acquisitions and 
projects in the Highlands region under the current provisions 
of section 6 of the land and water program. We also would have 
concerns if the funds for this bill came from the general 
Treasury and were appropriated through Interior, as we are 
trying to focus our resources on taking care of current 
responsibilities in our national parks.
    This concludes my testimony. Should the bill move forward, 
we would be pleased to work with the committee, the Congressman 
and yourself, Mr. Chairman, in various technical refinements, 
and I would be pleased to answer any questions. Thank you.
    [The prepared statement of Mr. McIntosh follows:]

 Prepared Statement of Robert W. McIntosh, Associate Regional Director 
for Planning and Partnerships, Northeast Region, National Park Service, 
                Department of the Interior, on H.R. 1964

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1964. a bill to assist the 
States of Connecticut, New Jersey, New York and Pennsylvania in 
conserving priority lands and natural resources in the Highlands 
Region, and for other purposes.
    The Highlands Region, comprising more than 2 million acres in one 
of the most urbanized sections of the country, contains numerous 
natural and cultural resources worthy of protection. It is a water 
supply source for over 11,000,000 persons, provides critical habitat to 
a wide variety of plant and animal species, and is the site of many 
historic events that have shaped our nation including significant 
actions related to the American Revolution. It is also an area rapidly 
experiencing the impacts of urbanization.
    The Highlands Region also contains units of the National Park 
System including Morristown National Historical Park, Hopewell Furnace 
National Historic Site, and the Delaware Water Gap National Recreation 
Area; designated Wild and Scenic Rivers including the Upper Delaware 
and Farmington Rivers; and two designated national heritage areas--The 
Hudson River Valley National Heritage Area and the Delaware and Lehigh 
National Heritage Corridor. The National Park Service has enjoyed long-
standing partnerships with the States and many of the governments and 
organizations in this region.
    The Department of the Interior (Department) looks forward to 
continuing this productive relationship with the U.S. Department of 
Agriculture, the four states, local governments, and many present and 
new partners in the Highlands Region as we, together, strive to protect 
natural, historic, and cultural resources. We believe, however, that 
the goals of the bill can be best achieved through existing public and 
private partnerships between the Federal government, the States, local 
jurisdictions and the private sector, without earmarking funds from the 
Land and Water Conservation Fund (LWCF) Act.
    On June 17, 2003, the Department testified before the House 
Subcommittee on National Parks, Recreation, and Public Lands on H.R. 
1964. During that testimony, the Department indicated that it would 
defer to the position of the USDA, who was the lead agency in H.R. 
1964, as introduced. We also cited concerns about cost and identified a 
number of existing programs that could meet the needs of the Highlands 
Region. During markup, H.R. 1964 was amended in several ways, including 
designating the Department rather than the USDA as the lead agency. For 
these and other reasons discussed below, the Department does not 
support this bill. We continue to defer to the USDA regarding 
provisions of the bill affecting the Forest Service.
    The Highlands Region has been the subject of many past studies 
described in the bill that document its important natural and cultural 
resources. In 1992, the Forest Service completed its initial study of a 
portion of the Highlands Region as described in the bill, which was 
authorized by the 1990 Farm Bill. The study supported land stewardship 
and watershed-based planning activities. identified voluntary and non-
regulatory means to protect important areas, fostered public awareness 
of the region's resources. and identified priority areas for 
protection. In 2000, under Representative Frelinghuysen's leadership, 
Congress recognized the need to revisit the study's findings and 
authorized an update in Public Law 106-291. The Forest Service 
completed the update in 2003 with the National Park Service providing 
comments on the draft report. The draft report is the product of 
extensive public participation across the Highlands Region, including 
involvement by members of the working group from over 120 
municipalities, non-profit groups, private groups, and citizens in 12 
Counties as well as other Federal agencies and members of Congress.
    Congress requested that at the conclusion of the update, the 
Secretaries of Agriculture and Interior report on how they will work 
together to implement the recommendations of the study. In the draft 
report, three recommendations are provided for a continued Federal role 
in the Highlands Region including supporting the stewardship of the 
Highlands Region, ensuring the availability of science-based 
information, and partnering in local land stewardship activities. This 
report is currently pending interagency review.
    As we mentioned in our previous testimony, we see many 
opportunities for participation in the Highlands Region through 
existing programs of the Department. Projects within the region may 
qualify for Rivers, Trails and Conservation Assistance and Wild and 
Scenic Rivers assistance, and the LWCF, among others. Through our 
Rivers, Trails and Conservation Assistance Program, we are working with 
local groups along the Delaware and Hudson Canal to create a 220-mile 
network of trails (including water trails), scenic railroads, and 
scenic byways.
    H.R. 1964 would authorize appropriations of $100 million from the 
LWCF, or from the general funds of the Treasury, over 10 years 
beginning in FY 2005. We believe that Financial assistance to the 
region should continue through existing authorities of the Department. 
For example, the Department has made LWCF grants available to the four 
States totaling over $46.6 million between 2000 and 2003. Through the 
LWCF program, Rockaway Township in the Highlands Region in the State of 
New Jersey recently acquired 294 acres of land adjacent to the Wildcat 
Ridge Wildlife Management Area for trails, low impact recreation, and 
to protect open space inhabited by endangered species including the 
threatened Bald Eagle.
    We have consistently opposed earmarking the state grant portion of 
LWCF because it circumvents state authority for determining its own 
priorities for use of fund monies through the comprehensive statewide 
outdoor recreation planning process. It potentially affects the amounts 
available to the other states that rely on this program. Significant 
protection can be accomplished through grants to the states as they 
choose to prioritize acquisitions and projects in the Highlands Region 
under the current provisions of Section 6 of the LWCF Act.We also would 
have concerns if the funds for this bill came from the general funds of 
the Treasury because we are trying to focus our resources on taking 
care of our current responsibilities in our national parks.
    This concludes my testimony. I would be pleased to answer any 
questions the Committee may have this bill.

    Senator Craig. Thank you very much, Director McIntosh.
    Several questions of both of you. David, I understand that 
the Federal contribution--and I think Director McIntosh just 
referred to it--in H.R. 1964 for the land acquisition is the 
Land and Water Conservation Fund and that would be a 50 percent 
share for each acquisition. Is that how you read it?
    Mr. Tenny. That is correct.
    Senator Craig. If I remember correctly, Land and Water 
Conservation moneys that flow through to the trust fund are 
generated by receipts for Outer Continental Shelf and gas and 
oil drilling. Is that not correct? Offshore?
    Mr. Tenny. Yes, that is correct.
    Senator Craig. Outside of State.
    Mr. Tenny. Yes. There are a number of different sources, 
but the predominant source, as I understand it, is the Outer 
Continental Shelf.
    Senator Craig. I also remember all of the appropriations 
riders correctly that we have put on gas and oil drilling 
moratoriums, in effect, exempt the entire Atlantic seaboard. Is 
that not correct?
    Mr. Tenny. From my memory, yes, that is correct.
    Senator Craig. I think the Senator and the Congressman know 
where I am coming from. I am always frustrated by States who 
will disallow drilling off their shore, but want large portions 
of the Land and Water Conservation moneys to enhance their 
internal properties. It is a Federal resource. I know that and 
I know that it is distributed amongst the States, Director 
McIntosh, as you have spoken to it in part. But I wanted for 
the record to at least express this chairman's frustration that 
sometimes those that will disallow still ask a great deal from 
those who allow. If I had my way about it--of course, my people 
in Idaho would be very frustrated, but I would say to Alaskans 
and to those folks in Louisiana, you are the ones that allow 
the drilling, you ought to get the greater return. But, of 
course, we all benefit because those are national resources.
    Dave, in your reading of the bill, who is responsible for 
choosing the high priority projects to be proposed to the 
Secretary? I mentioned that in my opening comments. In essence, 
is it the Governors of the States or is it the Forest Service?
    Mr. Tenny. Mr. Chairman, as I read the bill, it appears as 
though the Governors of the States make recommendations. The 
Secretary of the Interior is responsible for selecting the 
projects after consulting with the Secretary of Agriculture. I 
believe that is how it works in my reading of the bill. 
Although I would note that it is not absolutely precise on that 
point, that is how we would read it.
    Senator Craig. So those are merely recommendations of 
selections to be made coming from the Governors. Is that 
correct?
    Mr. Tenny. Yes, that is correct as we read it.
    Senator Craig. The Congressman is the real authority here. 
Am I reading that correctly, Congressman? Why do both of you 
not come back to the table, if you wish? Is that a correct 
assumption as how we acquire or how the selected parcels are 
chosen?
    Senator Corzine. Would the chairman repeat?
    Senator Craig. Yes, okay. What I am, in essence, saying 
here, as it relates to selection, is it is the Governors of the 
States or the Forest Service that ultimately make the decisions 
on the lands selected? Mr. Tenny has suggested that it is the 
Governors that make the recommendations. The Secretary makes 
the choices with recommendations from or consultation with the 
Forest Service.
    Mr. Frelinghuysen. My read on it is that the Governors 
obviously play a critical role in terms of those areas that are 
most under the gun with development, but I can tell you my 
office works very closely with organizations like the Trust for 
Public Lands. So there is a very successful collaboration, at 
least in the State of New Jersey, in terms of public and 
private partnerships determining what pieces of property are 
most endangered. Because our land prices are so expensive, 
there is not much we can do in terms of large swaths of land, 
but it is generally a partnership between the private sector 
and the public sector.
    Senator Craig. But the list of proposed lands comes from 
the Forest Service. Is that correct?
    Mr. Frelinghuysen. Inasmuch as they have designated through 
their studies those that are particularly in jeopardy because 
of----
    Senator Craig. And the Governors of the individual States 
or collective States add to or make recommendations beyond that 
list?
    Senator Corzine. Mr. Chairman, the way I read the specific 
law is annually the Governors of the Highlands States, with 
input from pertinent units of local government and the public--
and there are commissions certainly in New Jersey that work 
with the Governor--identify land conservation partnership 
projects in the Highlands region that shall be proposed for 
Federal financial assistance and submitted, as a list of those 
projects, to the Secretary of the Interior.
    Mr. Frelinghuysen. Defined in section 5.
    Senator Craig. Yes, I am looking at that section now. All 
right.
    David, I see by your testimony last year on H.R. 1964 
before the House Resources Committee, you had a number of 
concerns, and I know that a number of amendments--and the 
Congressman has talked about the way he and the chairman 
worked--were made to the House bill. Did those amendments 
address your concerns and the concerns of the Department in 
large part?
    Mr. Tenny. To a point, yes. There are still some concerns 
that we have identified in our testimony that we have submitted 
today. And I would say that probably the most important is the 
precision of the designation of the area. We have done a lot of 
work over the last 13 years in the New York-New Jersey area. We 
have done much less work--in fact, we are more or less at the 
beginning--with respect to the areas in Connecticut and in 
Pennsylvania. We know much less about those areas and probably 
ought to do a lot more work there in order to be able to 
identify the same types of high-value areas in Connecticut and 
Pennsylvania that we have been able to identify in New York and 
New Jersey.
    Senator Craig. I have got, obviously, these brochures in 
front of me that speak to proposed suggested lands and 
boundaries and areas of concern. I wonder if you can give--and 
I am speaking to any of you--a better understanding of the 
total area in which the Highlands project would be located. 
From the bill, I know it is larger than about 2 million acres. 
I also know it is within the Reading prong and other similar 
ecological upland areas. But can you help clarify not only the 
length of the Highlands area but also how wide this area might 
be in total? Is there a way to do that?
    I guess I am always frustrated by the endless process, if 
you will, and we are trying to define it here to put some 
limitation on it or boundaries on it and, at the same time, 
recognize the areas that are most sensitive.
    Congressman.
    Mr. Frelinghuysen. We referred to it. The U.S. Forest 
Service did publish an update to the New York-New Jersey 
Highlands regional study. That study adopted the Highlands 
study area boundaries from the original 1992 study, and they 
expanded them eastward from the Hudson River to New York to the 
Connecticut border using topography and geography, as key 
determinants. The Forest Service study goes on to say--and I 
quote--``The boundaries of the study could be revised again in 
the future,'' and suggest ``implementation could also be 
extended to ecologically similar areas in Pennsylvania and 
Connecticut.'' To some extent, we incorporated in our 
legislation the larger area that they sort of designated that 
was very similar in geographic nature.
    Senator Craig. Well, Congressman, Senator, we will work 
with you to see if there is not a way to define boundaries in a 
little clearer way. I think when we deal with systems, if you 
will, or types of geography, it is open-ended. This thing could 
stretch on down the Appalachia a considerable ways, and I think 
that we are all concerned about that. While I do not argue the 
sensitivity of areas involved, I do believe it is incumbent 
upon all of us to try to put some definition to it. I will see 
if I cannot tackle that a little bit, but it will be done in 
full cooperation with all of you.
    Mr. Frelinghuysen. We would be pleased to work with you in 
better defining those boundaries. Thank you very much.
    Senator Craig. Thank you.
    Let me switch to S. 433, Dave, and that deals with, as I 
have mentioned and as you have appropriately mentioned, the 
central Idaho area.
    A year ago, concern in this area was so great that the 
forests primarily in the Nez Perce were dead and dying in many 
instances in the Red River basin and others in and around Elk 
City that activity had to occur of some kind not only to 
reinstate the health of the forests, but to try to improve the 
historic partnership relationship with the communities 
involved. A rather extensive meeting was held in Grangeville. 
Secretary Rey attended as did many others. It was extremely 
well attended by officials of the Forest Service. That was a 
year ago approximately.
    The good news is the meeting was well attended. The good 
news is a great many promises were made. The bad news is 
nothing has happened.
    The Red River basin is now, for all intents and purposes, 
dead. I talked with a variety of interests there over the 
weekend. I was in that area. They would suggest that none of 
the timber left is of any value for logging purposes. There 
might be some post or pole or logs that could be utilized in a 
salvage way for log home building.
    I find it ironic that this large stretch of critical 
watershed is approximately the same climax forest area where 
the great forest fires of 1910 were started that swept out 
across north Idaho into Montana and back across Idaho, when 
millions of acres burned, many people were killed, and 
communities were wiped out. It is strange that the perfect 
storm started not far from what we are dealing with today.
    I must tell you that all of the communities of interest are 
extremely frustrated at this moment. You are in part correct. 
Those who came together to propose to us legislation embodied 
in S. 433 came out of absolute frustration, dead and dying 
communities and dead and dying forests all around them, and a 
Forest Service that is unable to move or unwilling to move. I 
have not quite determined which it is.
    But I have determined that if the perfect storm starts, 
meaning firestorm, that all of those watersheds could be wiped 
out. The devastation to wildlife habitat and water quality in 
the upper reaches of the Clearwater, a major contributor to the 
Snake, an extremely valuable water resource and fish habitat, 
could be badly damaged, let alone communities like Elk City--
and we will hear from a person from Elk City today--entirely 
wiped out.
    And yet, the Forest Service cannot move. So if you cannot 
move, we will move you, as is happening all over the United 
States today and as the Congress finally did last year with the 
Healthy Forest bill. We are tired of watching millions of acres 
go up in smoke, all in the name of whatever, I guess the beauty 
of a wildfire or the destruction of it.
    So you are in part correct that the legislation is going to 
get a hearing and a voice because of that. But you are also 
correct in that action could replace this but inaction will not 
and action has not occurred. I do not know that you wish to 
comment any more about it, but you are certainly welcome to if 
you wish.
    Mr. Tenny. Mr. Chairman, I would like to comment on this. 
One thing I noted, when I have looked into this myself in 
preparation for the hearing, that was a very good thing, was 
that the commitments of the forests were posted on their web 
site, had a link to your web site so that it could be 
completely transparent what was committed to. I have to be 
honest in saying that I was disappointed in seeing what had 
resulted from those commitments.
    I have had conversations with Gail Kimball, who is the new 
regional forester in region one, who I would note has played a 
pivotal role in the development of the tools both 
administrative and in the technical side of development of the 
legislation from the Department's side of that effort. They are 
all part of the Healthy Forest initiative and the Healthy 
Forests Restoration Act. She is very familiar with the tools 
and what needs to be done. She is very passionate.
    She has taken a few steps that I think you should be aware 
of. First of all, on the Nez Perce, the Nez Perce now has a 
deputy forest supervisor who is going to be helpful in that 
effort in the management of that forest. She is going to be 
meeting with the forest supervisor there next week and then 
going out to the forest the following week. And her focus is 
going to be pretty straightforward. It is going to be on how 
well the agency is using the tools that have been provided, 
both the administrative tools and now the legislative tools. 
She will be very, I think, adept at being able to train and 
identify the opportunities, especially in the stewardship 
contracting area and in the use of the expedited NEPA 
authorities, and I think she will, in my mind, make a 
difference there.
    I do not want to leave you, Mr. Chairman, or anyone else 
with the impression that the agency is not doing anything out 
there because I think they are trying to do some things. I do 
not think it is moving it forward quickly enough. There are 
some limited successes, but they are limited. Given the nature 
of the problem, given the potential for the devastation that 
might occur, as you noted, in this area that has historically 
had some of the worst wildfires in the Nation's history, time 
is really not on our side. So I was very heartened when Gail 
told me that one of her first priorities and top priorities 
coming into the job was to look into this particular matter and 
play a personal role in it.
    Senator Craig. Well, Dave, thank you for those comments and 
observations. I hope you judge by my comments that we are more 
than anxious to work with you and our new regional forester to 
resolve this issue. We are certainly willing to give all 
parties time. I know we asked for a deputy at the Grangeville 
meeting. I am glad to hear that we are getting that.
    I do believe the resource demands some expedited process. 
Mother Nature will take care of it if we do not help her go in 
another direction. And I think we have all seen what Mother 
Nature has been doing the last several years in these wildfire 
scenarios. And we are sitting ripe for one at this moment in 
that environment. The bad news of 1910 was obviously tragic and 
a lot was destroyed, habitat, wildlife, and communities. This 
area is now even more populated today with people than it was 
back then by a considerable amount, and I think it would be 
terribly tragic, now that we have all built the record and seen 
the problem, if we were a year from now frustrated by the smoke 
in our eyes and the communities wiped out because we failed to 
act. So I thank you very, very much for that.
    On S. 1280, we are talking about 140 feet and 2 years and 
bureaucratic impossible ways of moving. I understand we are 
going to get it done now. I have a marvelous picture here of 
two stakes drawn along a road that are very visible that show 
the length of distance we are talking about that take all of 
the Congress' and the House's time because the Forest Service, 
by its current law, cannot act to allow a right-of-way for this 
purpose. I guess enough is said there, but we will expedite 
this as quickly as we can.
    It is beyond me to think that the Forest Service or any 
Federal land management agency is not capable, within current 
law and process, of resolving an issue of a 140-foot right-of-
way without having to go through all kinds of land exchanges 
and surveys and boundary adjustments and assessments to 
determine values and the phenomenal complication.
    Let me ask just this of you. I would like to know how much 
in the end, when it is all done and the dust clears and the 
land is exchanged--I want you to draw a line and total up the 
cost and come back and tell this committee how much it will 
cost for our Federal Government to work with a local government 
to establish a 140-foot right-of-way for a pipeline. Would you 
do that?
    Mr. Tenny. I think that is a fair request, Mr. Chairman.
    Senator Craig. I think it would be appropriate for the 
record. And I think it would be very frustrating to all of us 
who stagger around here trying to find the necessary moneys to 
fund our public land agencies so that they can go out and 
protect, defend, and manage the resource appropriately. Thank 
you.
    David, thank you. Director McIntosh, thank you very much. 
We will work on all of these projects jointly with you and we 
will appreciate your advice and counsel in them as we work to 
finalize them. Thank you.
    Now we will call our second panel forward: Thomas Gilbert, 
executive director, The Highlands Coalition, Titusville, New 
Jersey; Dr. Bonner Cohen, senior fellow, National Center for 
Public Policy Research, Warrenton, Virginia; Susie Borowicz, 
Elk City, Idaho; and Rick Johnson, executive director of the 
Idaho Conservation League in Boise.
    A little instruction on the use of the mikes for all of you 
but also for our court reporter to hear and for the rest of the 
folks in the room to hear: pull those mikes as close as is 
comfortable. Make sure the little button on the face of the 
stand there is lighted and proceed. Mr. Gilbert, we will 
proceed with you, executive director, The Highlands Coalition, 
Titusville, New Jersey. Welcome to the committee.

   STATEMENT OF THOMAS A. GILBERT, EXECUTIVE DIRECTOR OF THE 
              HIGHLANDS COALITION, TITUSVILLE, NJ

    Mr. Gilbert. Thank you, Mr. Chairman. I very much 
appreciate the opportunity to testify in support of H.R. 1964, 
The Highlands Conservation Act.
    The Highlands Coalition is an alliance of over 100 
organizations whose mission is to protect and enhance the 
sustainability of natural and human communities in the 
Highlands region of Pennsylvania, New Jersey, New York, and 
Connecticut.
    Rather than reiterate all of the important resource values 
of the Highlands region that were very eloquently described by 
the bill sponsors, let me focus on how in our view The 
Highlands Conservation Act responds to the challenges 
identified by the Forest Service by authorizing Federal 
matching funds to assist the Highlands States in conserving 
priority lands identified in the Forest Service studies and by 
authorizing financial and technical assistance to private 
landowners in the region.
    This legislation was developed with significant input from 
diverse interests, including representatives of national and 
state homebuilders associations and the local Farm Bureau. It 
has broad and bipartisan support at all levels of government. 
In fact, I am authorized by Governor Pataki of New York to let 
you know how important the passage of this act is to the State 
of New York. The New York State Environmental Commissioner had 
wanted to testify in person here today but has submitted 
written testimony instead.
    I also have with me over 50 resolutions from local 
governments throughout the Highlands region in support of this 
legislation.
    Senator Craig. Tom, are you leaving those with us for the 
record or for the file?
    Mr. Gilbert. If I can, I would be happy to.
    Senator Craig. Certainly. Thank you. We appreciate that.
    Mr. Gilbert. The Highlands Conservation Act is modeled 
after the State and Federal partnership that was used to 
conserve Sterling Forest, a crown jewel of the New York 
Highlands. In 1996, Congress authorized $17.5 million from the 
Federal side of the Land and Water Conservation Fund, not the 
State side. That was matched by State and private funds 
totaling over $55 million for the purchase of more than 15,000 
acres that are now part of Sterling Forest State Park in New 
York. H.R. 1964 would facilitate similar State and Federal 
partnerships to conserve other high priority lands in the 
Highlands region. Since these lands would be owned and managed 
by the States, there would be no increase in Federal 
landholdings or management responsibilities.
    The Forest Service has recognized the Highlands region as 
extending into Pennsylvania and Connecticut in their excellent 
studies of the New York-New Jersey portion of the region and we 
would concur with Mr. Tenny that in order for the entire 
Highlands region to be eligible for the Federal assistance 
provided under this act, that the Forest Service would need to 
extend these studies to include Pennsylvania and Connecticut.
    I would mention that Forest Service staff have met with 
State and local officials in both States to begin fleshing out 
what the boundaries might look like for a possible study 
expansion and perhaps those discussions and those draft maps 
could be a good starting point to address the very legitimate 
concern that you have raised about the boundaries of the 
region.
    I would also like to point out that the act would confer no 
regulatory authority to any level of government and funds could 
only be used to acquire lands or development rights from 
willing sellers. I would refer you to the extensive language in 
section 7 describing the respect for private property rights, 
the lack of regulatory effect, which explains the glowing words 
of support from Chairman Pombo for the legislation, as well as 
his praise for Mr. Frelinghuysen and Mr. Saxton for their work 
with him in the committee on the bill.
    Finally, I would add that having the Federal Government 
partner with the Highlands States to conserve vital watershed 
lands is a necessary and wise investment in our future, and it 
makes good economic sense. The North Jersey District Water 
Supply Commission estimates that water purveyors in the 
Highlands currently spend $14.3 million annually to treat 550 
million gallons of water per day. They further estimate that if 
development trends continue in the Highlands, the costs of 
treating this water could reach over $30 billion by 2054.
    So in conclusion, I urge you to support this bipartisan 
legislation to help safeguard the water supply for millions of 
Americans through an innovative State and Federal partnership 
that strongly respects private property rights. I appreciate 
the time and we look forward to working with you to help 
advance this important legislation. Thank you.
    [The prepared statement of Mr. Gilbert follows:]

  Prepared Statement of Thomas A. Gilbert, Executive Director of the 
                   Highlands Coalition, on H.R. 1964

    Thank you, Mr. Chairman, for the opportunity to testify in support 
of H.R. 1964, the Highlands Conservation Act. The Highlands Coalition 
is an alliance of over 100 organizations whose mission is to protect 
and enhance the sustainability of natural and human communities in the 
Highlands region of PA, NJ, NY, and CT. The Highlands region is defined 
by the easternmost ridge of the Appalachian Chain that serves as the 
backyard to several major metropolitan areas, including Philadelphia, 
New York City and Hartford. The region lies within an hour of some 25 
million Americans and provides and protects the water supply for over 
15 million people. The Highlands receives more recreational visitors 
each year than many of our most heavily visited national treasures.
    For all of these reasons, the Highlands region has been recognized 
as nationally significant by the U.S. Forest Service in several 
studies. In their most recent study, the Forest Service documented the 
development of over 25,000 acres of land in the NY-NJ Highlands between 
1995 and 2000, and estimated that build-out could be reached within 20 
to 30 years. If those trends continue, they predict significant impacts 
on future water quality and supplies. They identify approximately 
300,000 acres of high-value watershed lands that need further 
protection.
    The Highlands Conservation Act responds to the challenges 
identified by the Forest Service by authorizing federal matching funds 
to assist the Highlands States in conserving priority lands identified 
in the Forest Service studies, and authorizing financial and technical 
assistance to private landowners in the region. This legislation was 
developed with significant input from diverse interests, including 
representatives of national and state homebuilders associations, and 
the local Farm Bureau. It has broad and bipartisan support at all 
levels of government. In fact, I am authorized by Governor Pataki of 
New York to let you know how important the passage of this Act is to 
the State of New York. The New York State Environmental Commissioner 
had wanted to testify in person here today, but has submitted written 
testimony instead. I also have with me over 50 resolutions from local 
governments in the region in support of this legislation.
    The Highlands Conservation Act is modeled after the state and 
federal partnership that was used to conserve Sterling Forest, a crown 
jewel of the NY Highlands. In 1996, Congress authorized 517.5 million 
from the federal Land & Water Conservation Fund to match state and 
private funds totaling over $55 million for the purchase of more than 
15,000 acres that are now part of Sterling Forest State Park. H.R. 1964 
would facilitate similar partnerships to conserve other high priority 
lands in the Highlands region. Since these lands would be owned and 
managed by the states, there would be no increase in federal land 
holdings or management responsibilities.
    The Forest Service has recognized the Highlands region as extending 
into Pennsylvania and Connecticut in their excellent studies of the NY-
NJ portion of the region. In order for the entire Highlands region to 
be eligible for the federal assistance provided under this Act, the 
Forest Service would need to extend these studies to include PA and CT.
    The Act would confer no regulatory authority to any level of 
government, and funds could only be used to acquire lands or 
development rights from willing sellers. Prior to House passage of the 
bill, Congressman Richard Pombo, Chairman of the House Resources 
Committee and an ardent supporter of private-property rights, hailed 
the Highlands Conservation Act as a template for advancing land 
conservation in a bipartisan fashion while respecting private-property 
rights. Mr. Pombo also applauded Rep. Rodney Frelinghuysen, the bill's 
sponsor, for his work with Resources Committee members and staff to 
craft a balanced, reasonable bill.
    Finally, I would add that having the Federal Government partner 
with the Highlands States to conserve vital watershed lands in the 
Highlands is a necessary and wise investment in our future, and makes 
good economic sense. The North Jersey District Water Supply Commission 
estimates that the Highlands water purveyors currently spend an 
estimated $14.3 million annually to treat 550 million gallons of water 
per day. The Commission estimates that if development trends in the 
Highlands continue, treatment costs will reach over $30 billion 
annually by 2054.
    I urge you to support this bipartisan legislation to help safeguard 
the water supply for millions of Americans through an innovative state 
and federal partnership that strongly respects private-property rights.
    Thank you.

    Senator Craig. Mr. Gilbert, thank you very much.
    Now let me turn to Dr. Bonner Cohen, senior fellow, 
National Center for Public Policy Research in Warrenton, 
Virginia. Doctor, welcome before the committee.

 STATEMENT OF BONNER R. COHEN, Ph.D., SENIOR FELLOW, NATIONAL 
               CENTER FOR PUBLIC POLICY RESEARCH

    Dr. Cohen. Well, thank you very much, Chairman Craig, for 
the opportunity to comment on this bill this afternoon.
    It has fallen to me to be the voice of dissent on The 
Highlands Conservation Act, and let me briefly outline the 
problems I have with the legislation, which are both 
philosophical and practical.
    At a philosophical level, I am somewhat disturbed, to say 
the least, by kind of the underlying principle of the 
legislation that would seem to equate government ownership of 
land with sound environmental conservation. I believe that the 
record will show that you will find nowhere in the United 
States forests which are more disastrously managed than our own 
national forests, disease-ridden and overgrown that they are. 
The chairman addressed this problem earlier in the committee 
and it is an absolute tragedy. It is a problem that has been 
ongoing for several decades and under the best of 
circumstances, it is going to take decades to undo all the 
damage that has been done.
    What I mean by this is that this should serve as a 
cautionary tale for those who see in government ownership of 
land something that will lead to sound conservation. That takes 
us into now The Highlands Conservation Act which foresees $10 
million a year in the purchase of lands. $10 million a year in 
the grand scheme of things is not a lot of money. $100 million 
over a 10-year period. Nevertheless, I think this is a step in 
the wrong direction.
    What I am truly concerned about, aside from the principle 
of government ownership of land--the government already in this 
country owns approximately 40 percent of that land, but I am 
very concerned about the protections for private landowners.
    I was pleased to hear Senator Corzine say and Mr. Gilbert 
also say that the bill contains protections for private 
landowners. However, I do not think any of us should be under 
the illusions about the amount of pressure that can be brought 
to bear on a private, isolated landowner in a predominantly 
rural area by State environmental regulators working closely 
with nongovernmental organizations. There is something in the 
conservation debate known as the myth of the willing seller. 
And if a landowner is not in agreement with the policies being 
carried out in the name of conservation in a particular area, 
things can be done to that landowner to make his life 
miserable. We have seen this over and over again. I am certain 
the chairman is familiar with the problems of inholders in 
federally owned land out West. Why we would want to take a 
step, small and incremental though it may be, to replicate the 
system in this part of the country that has done so much harm 
in the Western United States is something I do not understand.
    Over and beyond that, I am somewhat disturbed--and I was 
glad to hear the chairman address this in his remarks--by the 
lack of definition in the bill. What exactly constitutes the 
area that we are talking about? There is nothing in the bill to 
keep this some day from being extended northward into Vermont 
and southward into Maryland. Equally, I doubt very seriously if 
the activities foreseen in the bill will cease on December 31, 
2014. What I think we have here is an open-ended bill.
    You know, looking at this from kind of a philosophical 
perspective, I want to come back to the whole idea of 
government ownership of land. If I wanted to develop a strategy 
for the pauperization of rural America, one of the first things 
that I would do is I would make sure that the Government owns 
as much land as possible. The Government could be Federal or 
State. And at the same time, if I could not buy all the land, 
then I would make sure that I could control how that land is 
being used.
    We can see this in the chairman's own home State of Idaho, 
a beautiful place. I have had the opportunity to visit many 
times. But 63 percent of it is owned by the Federal Government, 
in addition to which there are State lands. Parts of rural 
Idaho, as well as Montana and other parts of the West, suffer 
greatly for a variety of reasons, not the least of which is the 
enormous burdens placed upon local communities by Federal 
ownership of land. Counties with problems that they have to 
solve with respect to infrastructure, schools, and what have 
find that they do not have the tax base to support that.
    I think the people who are in the Highlands now support the 
legislation--I want to compliment Mr. Gilbert and other people 
here who have done a splendid job of packaging this. But I 
think down the road--I hope I am wrong, but I think down the 
road that they are going to have strenuous objections to what 
is being done. I believe the bill takes a step in the wrong 
direction and I believe that ultimately that property owners 
and local governments in the area are going to regret many of 
the things that the bill contains.
    I see that the red light is flashing, so I will conclude my 
remarks. Thank you.
    [The prepared statement of Dr. Cohen follows:]

 Prepared Statement of Bonner R. Cohen, Ph.D., Senior Fellow, National 
            Center for Public Policy Research, on H.R. 1964

    Good afternoon, my name is Bonner Cohen. I am a senior fellow with 
the National Center for Public Policy Research in Washington, D.C. and 
a member of the Board of Directors of the American Policy Center in 
Warrenton, Virginia. I want to thank Chairman Craig and the other 
members of the subcommittee for the opportunity to comment on the 
``Highlands Conservation Act,'' H.R. 1964.
    I believe the legislation under consideration by this subcommittee 
is flawed in. several key respects. At a fundamental level, it equates 
government ownership of land with conservation, an idea our Founding 
Fathers would have found amusing, to say the least. At least 40 percent 
of the land area of the United States is owned by government--federal, 
state, and local. Much of this land is poorly managed--from overgrown, 
disease-ridden national forests that routinely spawn catastrophic 
wildfires, to national parks that are in such a state of disrepair that 
the Park Service estimates it will take $5 billion and many years to 
undo the damage. To set aside more hard-earned taxpayer dollars for 
additional land acquisitions, in the name of conservation, is to ignore 
the disastrous environmental consequences of the already bloated public 
estate.
    Unfortunately, this is exactly what the Highlands Conservation Act 
does. The bill will increase the size of the public estate in the 
Highlands region. In doing so, it will pose a severe threat to the 
rights and livelihoods of property owners in the targeted area. While 
the bill gives property owners the right to decline selling their 
lands, this ``willing-seller'' provision is illusory. In the real 
world, there is no such thing as a ``willing seller.''
    In the case of the Highlands Conservation Act, ``non-federal 
entities,'' also known as non-governmental organizations (NGOs), with a 
clear political agenda will identify lands for ``management'' and will 
oversee the ensuing conservation actions. Few landowners will be able 
to withstand the pressure of environmental groups working in concert 
with state and local governments, eager to acquire private lands with 
taxpayer money. As the public estate in the region grows, the value of 
adjacent private lands will diminish. And, as property values decline, 
landowners will have little choice but to sell their land at a fraction 
of its former worth.
    Furthermore, the removal of private land from the tax roles will 
have a devastating effect on local revenues. Raising property taxes on 
the remaining private lands will be the only way local governments can 
make up the revenue short-fall. This, in turn, could force additional 
landowners to sell their property to the government.
    We are told that the bill will cost $100 million, to be disbursed 
in $10 million increments between 2005 and 2014. But there is nothing 
in the bill that prevents Congress from continuing appropriations 
beyond 2014. Similarly, the scope of the bill is currently limited to 
some 2 million acres in Pennsylvania, New York, New Jersey, and 
Connecticut. But there is nothing in the legislation to keep the area 
from being expanded to include highland areas in, say, Maryland and 
Vermont. In fact, the bill grants the U.S. Forest Service the right to 
continue land assessments studies and provides $1 million toward that 
end. As such, the legislation is an open-ended. invitation for 
government and its carefully selected ``partners'' to lock up more 
land.
    Indeed, equally disturbing is the cozy relationship the Highlands 
Conservation Act envisages between government and certain NGOs. The 
governors of the four states currently covered under the bill will 
identify lands in the Highlands region for management, based on 
recommendations made by state and local environmental organizations. 
These suggestions will then be forwarded to officials at the 
Departments of Interior and Agriculture for review, who will submit 
final recommendations to Congress for the purpose of appropriating the 
50 percent federal share of matching funds.
    Once this process has been completed, the NGOs will set about 
overseeing and managing the lands they themselves played a large part 
in identifying. As a sign of just how cozy the relationship is between 
the NGOs and the various government entities involved in the Highlands 
Conservation Act, one of these groups, the Palisades Interstate Park 
Commission, is specifically cited in the bill.
    Allowing these organizations--elected by no one and accountable to 
no one--to join forces with friendly state regulators supported by 
federal funds and impose land-use restrictions on unsuspecting property 
owners makes a travesty of representative democracy. While the bill 
keeps federal bureaucrats largely out of the land-management decisions, 
is simply replaces them with state regulators and allied environmental 
groups. To the landowner, this is a distinction without a difference.
    At a time of skyrocketing budget deficits at the federal, state, 
and local level, using scarce taxpayer dollars to acquire more land--
taking it out of productive use and removing it from the tax rolls--
makes no economic sense. The key to an economically and environmentally 
vibrant rural America does not lie in government ownership of land. 
American agriculture leads the world not because the land is owned by 
the government and managed by politically favored NGOs, but because it 
is under the stewardship of farmers whose livelihoods depend on how 
they use and conserve their land.
    The Highlands Conservation Act ignores this lesson. If enacted, it 
will be harmful for the people in the Highlands and their environment.
    Thank you very much.

    Senator Craig. Dr. Cohen, thank you very much.
    Because the panel is divided in the way we have asked you 
to be seated, let me ask questions of both you, Mr. Gilbert and 
Dr. Cohen, before we move on to testimony on the other 
legislation of S. 433. I trust you two can be patient while we 
work our way through this. Thank you very much.
    Mr. Gilbert, I do not in any way question the intent or the 
value that you see in the Highlands conservation project. I 
think Dr. Cohen has expressed some concerns that I have to some 
extent, and yet I value tremendously the public land base of my 
State. It has given us our uniqueness and our beauty, but it is 
a public land base that in some instances has been mismanaged, 
and we now work to correct that, and in other instances where 
it is not being managed at all, Mother Nature is not treating 
it so well. So it appears to be a base of property that has 
endless value and endless turmoil. You will probably hear a 
little bit of that in the next two panelists. I wish it were 
not that way. I guess it is the character of it.
    And yet, in rapidly urbanizing areas, I do not question the 
desire to have open space or the desire to protect watersheds 
from being concreted and asphalted over. I appreciate that. I 
am also always reminded when I take a night flight from here 
into New York, how it is almost all lights, and that concerns 
me that we would totally, if you will, develop the eastern 
seaboard and not protect some of its lands. Certainly we are 
working to do that. You obviously are working mightily to do 
so.
    But having said that, I do like to legislate in ways that 
have definition and understanding, that are clear, that do not 
provoke lawsuits or frustrations, that do protect private 
landowners. And at the same time, I do agree that private 
landowners can find themselves in very difficult situations if 
they were to stand in the way of certain broader public 
desires, if you will.
    You have heard me ask the two gentlemen from our different 
agencies about the size. It is obvious, when I look at the 
Highlands proposal, I look at one that spreads not from New 
York through New Jersey, but from one that spreads from New 
York to the Pennsylvania-Maryland line. While it is true that 
the Forest Service has not expressed that, it appears that the 
desires of those who are the advocates express and believe in 
that.
    Would you talk to us a little bit about definition and a 
boundary and the support you might give to being specific about 
boundary and limitations within this proposed legislation?
    Mr. Gilbert. Certainly, Mr. Chairman. Admittedly, the 
legislation I think is somewhat open-ended in terms of the 
extent of the region. I would point out that the acreage of the 
New York-New Jersey study area, as per the 2002 update, is 1.5 
million acres. So just to put a little bit of context in the 
figure over 2 million, how much more land might we be talking 
about in Connecticut and Pennsylvania, so potentially expanding 
by roughly half a million acres.
    The Highlands Coalition--again, our membership and our view 
of the region is as a greenbelt that really spans from the 
Maryland border to the Massachusetts border, and the 
explanation for that is that this is the eastern-most ridge of 
the Appalachian chain as it borders these metropolitan areas. 
That is the key definition. That is what makes the Highlands 
important is that these are the lands that are very close to 
millions of people, that provide and protect the water supply, 
that provide recreation opportunities close to home. So from 
our perspective that is the most compelling definition.
    Now, as you said, that is not necessarily the Forest 
Service's definition. That is the case that we are making. It 
will be up to the Forest Service based on their assessments, 
which, as I have mentioned, they have already met with State 
and local officials and begun to look at ecological mapping, to 
figure out what a scientific basis for defining the region 
might be in those two States. That will be and should be their 
call.
    But in response to Mr. Cohen, in terms of the open-
endedness of this, I think the legislation clearly defines the 
region as Connecticut to Pennsylvania, so there is no authority 
within the legislation to expand beyond that, while certainly 
there is a need to better define the region within those two 
States.
    Senator Craig. Section 5(5)(a) says, projects will be 
consistent with areas identified as high conservation value 
named in the Highlands study area.
    Mr. Gilbert. That is correct. So I guess my interpretation 
of that is that in order for Pennsylvania and Connecticut to 
then become eligible for the funds authorized under the act, 
the Forest Service would first need to identify such lands in 
those States. In the absence of that identification by the 
Forest Service, those States would not be eligible for the 
funds.
    In fact, there was language in an earlier version of the 
bill that was stripped out at some point which, under the 
eligibility requirements, said, and other similar studies 
conducted by the Forest Service in the Highlands region, which 
was essentially a placeholder. I am not sure why and when that 
was stripped out, but perhaps that is something that could be 
clarified through report language or amendment to the 
legislation.
    Senator Craig. So in your mind can a Governor propose a 
project outside of the Forest Service list?
    Mr. Gilbert. No. As I read the bill, Mr. Chairman, that 
would be an eligibility requirement. That is the starting point 
from which the Governors must identify projects. It has to be 
within areas identified as high value by the Forest Service.
    Senator Craig. By definition, when these lands are 
acquired, they move from a private to a public status.
    Mr. Gilbert. As I read the bill, the eligible use of the 
funds would include State purchase of--again, this is non-
Federal acquisition--lands or interest in lands. So development 
rights could be purchased, and in that case public dollars are 
stretched further and the land remains in private hands. 
Traditional uses of the lands can continue. So I think that is 
an important distinction to note here as well that this is non-
Federal. This is State acquisition or purchase of development 
rights.
    Senator Craig. But none of them would become Federal by 
definition in your mind. They would become State properties.
    Mr. Gilbert. As I read the bill, it is limited to State 
acquisition or purchase of development rights.
    Senator Craig. Dr. Cohen, you had expressed some concerns 
similar to mine in relation to the length of the Highlands 
area, as well as the width of the area. Given your reading of 
the bill, do you see this as an expansive process or a limited 
process?
    Dr. Cohen. I think it is kind of the nature of the beast. 
Once you create these things, there is nothing in the current 
language of the bill to keep, at some point down the road, 
someone from offering an amendment or something like that to 
further expand the area under coverage, say, north into Vermont 
and south into Maryland. As of right now, as far as I can see, 
other than the point that Mr. Gilbert made and others have 
made, it is not clearly defined what the area within the four 
States is, but I am concerned that at some point down the road, 
things being what they are, the area could be expanded into 
additional States.
    Senator Craig. You expressed some concern here. If the 
private property and willing seller/willing buyer language is 
not strong enough for you, would you provide my staff with an 
alternative private property protection language?
    Dr. Cohen. Yes, I would be happy to. Let me give you an 
example, a very quick one, of the kinds of things we have to 
guard against here.
    Ann Corcoran is an owner of a farm near the Antietam 
Military Battlefield in Maryland. A few years ago, she found 
out that the Conservation Trust, in close cooperation with the 
U.S. Park Service, was going around the battlefield and the 
area near the battlefield and purchasing parcels of land and 
then turning around and selling that land to the U.S. Park 
Service. Had that been allowed to continue, her farm would have 
become an inholding. As you well know as someone who is out 
West, this is not a very pleasant state of affairs and it is 
something that can greatly reduce the value of the property.
    Fortunately for Mrs. Corcoran, who incidentally was a 
former employee of the Nature Conservancy and the Audubon 
Society, the irony being what it is, she was politically well 
connected enough and had enough money to defend herself. But I 
am deeply concerned about smaller landowners who will not have 
the money to go to an attorney to defend himself. And this is 
just the kind of thing that I think needs to be put into the 
bill. So I would be happy to do that for you.
    Senator Craig. Well, thank you. Thank you, both. As I 
expressed to the Senator and the Congressman, I express to both 
of you, as we move this legislation forward, we will work 
closely with you to see if some of these additional questions 
might be resolved and/or clarified before it will move out of 
this committee and to the floor for a vote. So I thank you both 
very much for your time and your commitment to these issues.
    Now let me turn to my colleagues from Idaho and S. 433. A 
lady from Elk City, Idaho. For those of you who have never been 
to Elk City, Idaho, it truly is the community at the end of the 
road, and a wonderful community it is, small and at the end of 
a very long road through a national forest. So, Susie, you have 
traveled a long distance just to get to pavement, let alone for 
that pavement to take you to an airport, let alone for that 
airport to bring you here. So we welcome you before the 
committee and appreciate your testimony. Please proceed.

           STATEMENT OF SUSIE BOROWICZ, ELK CITY, ID

    Ms. Borowicz. Thank you very much, Senator. I would really 
like to thank you for the opportunity to appear before you 
today. I bring greetings from beautiful north central Idaho and 
especially from my home town, Elk City, which is a small, 
rural, wonderful town. It is at the very end of the road and at 
the headwaters of the south fork of the Clearwater River. We 
are surrounded by 2.2 million acres of the Nez Perce National 
Forest.
    I certainly appreciate your very strong words and your 
expression of frustration over the situation in our woods, in 
our forests. I totally share that. When the Healthy Forests 
Restoration Act was passed, Forest Service Chief Dale Bosworth 
had the words for us, we will not fail, we shall not fail. And 
my message to him is basically we have failed in Red River. We 
have failed to meet an obligation there and they have failed us 
to be good neighbors. They have made us promises. They have 
made excuses. But to this point in time, they have not come 
through with anything of value to help out our community.
    They have a responsibility to us, and this bill provides an 
opportunity to help in this area and to give us another 
opportunity to act with them.
    Two years ago, I retired as the principal from Elk City 
school, and our school population during the time that I was 
principal dropped from 132 students to now 32 students in 
grades K through 8. I had nine and a half teachers on my staff, 
and now there are only three. Many, many of these staff cuts 
came because of budget constraints because of the Federal 
forest moneys not being available to schools. The Craig-Wyden 
legislation has definitely been a lifesaver for our district. I 
cannot tell you how much it has done for us.
    This pilot project bill is certainly needed to provide an 
opportunity to augment these moneys in our district where 89 
percent of our land is federally owned and where we have 92 
percent of our children in our school on free and reduced 
lunch. Those timber receipt revenues and other economic 
benefits that are foreseeable from activities in this pilot 
project will be definitely a shot in the arm to communities 
like ours in the Clearwater basin, including our schools and 
our roads. I cannot tell you how much it is needed there.
    There is a great and very imminent need to implement this 
pilot project. Forest insects and disease, wildfire, and other 
threats to fish and wildlife habitat in our local communities 
are particularly severe, and they are very, very much in need 
of treatment. The Forest Service is trying to do their best to 
get started in developing and implementing some strategies, but 
it is only a small fraction of what needs to be done. The Red 
River and American River drainages around Elk City are perfect 
examples where the Forest Service has not come close to keeping 
up with their insect infestations and they are destroying the 
living forest.
    There is much more preventative, remedial, and restorative 
work that needs to be done. Folks in Grangeville, in Orofino, 
in Kamiah, in Kooskia, and other communities in the basin share 
the concerns of the citizens in Elk City about the conditions 
of the forest that surround them. I cannot tell you about the 
fear of sitting on a deck at night at our home and hearing the 
lightening strike around us and not know what is going to 
happen that night, whether the fires will start close to home 
or far away from home. It is a tremendous fear to live through 
something like that and to have the forests threatened and your 
livelihood threatened and your home threatened.
    The people who live and work among the Federal forests in 
the West are now much less isolated than we were in prior 
years. We have access to the same sources of information and we 
discuss a lot of the same issues that any Americans do. Just 
because we are backwoods does not necessarily mean that we are 
backward. We share the new national values toward conservation 
and we share the restoration of the national ecosystems.
    But as neighbors and stewards of federally managed land, we 
know that the government can too often act as an absentee 
landlord. That is why we want to be good neighbors, along with 
others who care a great deal about our public lands. We want to 
help those Federal managers to conserve and sustain those 
national treasures.
    About 5 years ago, I was asked to serve on the Federal 
Forest Lands Task Force, and this S. 433 is very near and very 
dear to my heart. Our mission was to come up with pilot 
projects to test new approaches to the management of Federal 
public lands that had been studied in an earlier task force 
report. Our attention was to assist these Federal managers to 
manage the lands more effectively, more efficiently, and more 
responsive to local communities and broader national interests.
    This report was widely distributed. It got 80 percent 
favorable comments, and the Clearwater Basin Stewardship 
Project is one of those that is adapted from the five that we 
proposed.
    In conclusion, I would like to just strongly support the 
prompt enactment of S. 433. I would like to thank you 
especially for this opportunity to share my excitement about 
the possibilities this bill would create for those of us living 
in north central Idaho. I am a member of the North Central 
Idaho RAC committee, and our group is probably one of the 
strongest, one of the best, and I think one of the most active 
groups in Idaho. A lot of our work has been done on watershed 
restoration, and this bill would be a perfect fit for our 
group, which has a wide, diverse group of people that represent 
a large number of constituents of varying backgrounds.
    The national forests in our basin are currently facing the 
threat of catastrophic wildfire and disaster from forest 
conditions that are out of historical balance. We are on a 100-
year rotation cycle and our 100 years is almost up because it 
is timed right with the 1910 fires that Senator Craig 
mentioned. So we only have 6 more years.
    With the efforts of the collaborative group such as this 
bill would create, we can work together to reduce these threats 
around our homes and we can work to enhance the sustainability 
of the forests, the fish, the wildlife and the ecological 
wealth of north central Idaho.
    Thank you very much.
    [The prepared statement of Ms. Borowicz follows:]

             Prepared Statement of Susie Borowicz on S. 433

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today. I bring greetings to you from 
beautiful North Central Idaho and in particular from my home, Elk City. 
Elk City is a wonderful, small rural town near the headwaters of the 
South Fork of the Clear-water River. We are surrounded by the 2.2 
million-acre Nez Perce National Forest.
    Senate Bill 433, the Clearwater Basin pilot project bill, is very 
near and dear to my heart. About five years ago I was asked to serve on 
the Federal Forest Lands Task Force Working Group. Our mission was to 
come up with pilot projects within the state of Idaho to test new 
approaches to management of federal public lands that had been studied 
in an earlier Task Force report. Our intention has always been to 
assist federal managers to manage these public lands in ways that are 
more efficient, effective and responsive to local communities and to 
broader national interests. We issued a December 2000 report, Breaking 
the Gridlock: Federal Land Pilot Projects In Idaho, in which we 
recommended specific pilot projects to be considered for 
implementation. The report was widely distributed for public comment, 
and 80% of the comments received were favorable. The Clearwater Basin 
Stewardship Collaborative Project, from which S. 433 is adapted, was 
one of the pilot projects that we recommended in the report. I think 
that the entire Working Group shares my strong belief that a Clearwater 
pilot project can be successfully implemented, based on the 
collaborative efforts of citizens and communities in the Clearwater 
basin.
    As a member of the Working Group and a citizen who lives in the 
Clearwater Basin, I support the enactment of S. 433. S. 433 sets out a 
pilot project that will, based on a public process for local and 
national interest constituencies to reach agreement with the Forest 
Service, identify and implement high priority conservation and 
stewardship activities on Clearwater and Nez Perce National Forest 
lands in the Basin. The bill could yield sorely needed environmental 
and community benefits over the next several years.
    The bill will establish a broad-based collaborative advisory panel 
to work with the Forest Service, Nez Perce Tribe, and other 
stakeholders to focus on fish and wildlife habitat restoration, forest 
health, and other particular projects in need of priority attention to 
improve the condition of the national forest lands in the Basin. With 
consensus reached on these activities, priority would be given to 
complete environmental review, public participation and other required 
procedures for the Forest Service to consider and reach final decisions 
regarding implementation. I believe that the structure of the bill will 
allow a very useful practical test of an approach to getting past what 
has been called the ``gridlock,'' ``analysis paralysis'' and ``process 
predicament'' that has consumed the Forest Service in paperwork, 
appeals, and lawsuits, and greatly slowed and encumbered getting 
environmentally sound and beneficial work done in the field.
    There is a great and imminent need to implement this pilot project. 
Forest insects and disease, wildfire and other threats to fish and 
wildlife habitat and our local communities are particularly severe and 
very much in need of treatment. The Forest Service is trying to do 
their best to get started in developing and implementing some 
treatments, but this is only a small fraction of what needs to get 
done. The Red River and American River drainages around Elk City are 
examples of areas where the Forest Service has not come close to 
keeping up with insect infestations that are destroying the living 
forest and creating a huge fire hazard. However, there is much more 
preventive, remedial, and restoration work to be done on other national 
forest lands in the Basin as well. People in Grangeville, Kamiah, 
Orofino, and many other communities in the Basin share the concerns of 
citizens in Elk City about the current condition of national forest 
lands and the need for more effective management actions. This pilot 
project would mesh with and enhance efforts to address these needs 
under the Healthy Forests Restoration Act, our national, Idaho and 
community fire plans, stewardship contracting authority and other 
recent initiatives.
    The people who live and work among the federal forests in the West 
are now much less isolated than we were in prior years. We have access 
to the same sources of information and discuss most of the same issues 
as any Americans today. We share the new century's national values 
toward conservation and restoration of important ecosystems. But as 
neighbors and stewards of federally managed lands, we know that the 
government can too often act like an absentee landlord. That's why we 
citizen neighbors, along with others who care a great deal about these 
public lands, must help federal managers to conserve and sustain 
national forest treasures.
    Fortunately, we already have a collaborative advisory group that 
works with the Forest Service on Clearwater and Nez Perce National 
Forest issues. I am a member of the North Central Idaho Resource 
Advisory Committee (``RAC'') established under the Craig-Wyden 
legislation. I believe that the North Central Idaho RAC is one of the 
strongest, and most active, well-run RACs in our state. Our RAC group 
is made up of very diverse individuals with varying backgrounds and 
interests. Our meetings are very remarkable, with much give and take 
and everyone listening intently to each other. Because we have folks 
from across the full spectrum of environmental, business, and community 
interests, we represent many, many different constituents.
    The current work of the North Central Idaho RAC is basically 
limited to projects eligible for County funding under the Secure Rural 
Schools and Community Self-Determination Act, also known the Craig-
Wyden legislation. Much of our work has concerned watershed restoration 
activities. S. 433 takes a reasonable step beyond the Craig-Wyden 
legislation and other existing law to empower a stakeholder advisory 
panel to work with the Forest Service on a substantially broader range 
and scale of priority stewardship projects. It is my hope that the 
North Central Idaho RAC can be eligible to serve as the collaborative 
advisory panel under the provisions of S. 433, or that its members can 
be eligible to serve on the panel. This would facilitate implementation 
of the pilot project, since the North Central Idaho RAC is already 
established, and its members have proven over the course of 2\1/2\ 
years to be able to work together to agree upon getting projects done 
out on the ground.
    The timber receipt revenues and other economic benefits that are 
foreseeable from activities that are expedited through the pilot 
project will be a shot in the arm to the communities in the basin, 
including our local schools and roads. Two years ago I retired as 
principal from Elk City School. Our school population during my tenure 
as principal dropped from 132 students in grades K-10 to where now we 
have 32 students in grades K-8. I had a staff of 9\1/2\ teachers and 
now there are only 3 on staff. Many, many of my staff cuts came because 
of budget constraints because of the Forest Funds monies not being 
available to us. The Craig Wyden legislation has been a lifesaver for 
our district, but this pilot project bill is certainly needed to 
provide an opportunity to augment those monies in our district--where 
89% of the land is federally owned and where we have 92% of our 
children on free and reduced lunch.
    From a community point of view there is very strong local support 
for this bill. It offers us another important opportunity to make our 
forests healthier. It gives us another avenue of action and another 
chance to ``break the gridlock'' and help the Nez Perce and Clearwater 
National Forests on their way to become more productive, beautiful and 
sustainable forest lands.
    I believe that this legislation should receive bipartisan support 
at the national level as an Idaho pilot project that can be fully 
implemented within existing national forest laws. The bill does not 
exempt any Forest Service decisions or activities from environmental 
laws, administrative appeal or judicial review. It does not dictate 
that any particular activities occur, it simply provides a framework 
for achieving improved evaluation and agreement on activities that 
should receive priority attention. It doesn't present a threat to any 
resource or user group. It is structured to facilitate inclusive, 
collaborative efforts to further conservation and environmental 
objectives.
    In conclusion, I strongly support prompt enactment of S. 433. I 
thank each of you for this opportunity to share my excitement about the 
possibilities this bill would create for those of us living in North 
Central Idaho. The Clearwater Basin country is truly a treasure. The 
national forest lands in the basin are currently facing the threat of 
catastrophic wildfire and other disaster from forest conditions that 
are out of historical balance and that continue to deteriorate. With 
the efforts of a collaborative group such as this bill would create, we 
can work together to reduce these threats. We can work together to 
enhance the sustainability of the forest, fish, wildlife, and 
ecological wealth of North Central Idaho!

    Senator Craig. Susie, thank you very much.
    Now let me turn to Rick Johnson, executive director of the 
Idaho Conservation League from Boise. Rick, welcome before the 
committee.

     STATEMENT OF RICK JOHNSON, EXECUTIVE DIRECTOR, IDAHO 
                 CONSERVATION LEAGUE, BOISE, ID

    Dr. Johnson. Thank you for the opportunity to comment 
today. The Idaho Conservation League has been working to 
protect and restore the air, water, wildlands, and wildlife of 
Idaho for over 30 years.
    The Clearwater basin, as defined by this bill, is comprised 
of over 2.7 million acres on the Clearwater and Nez Perce 
National Forests. Over half of this 2.7 million acres is 
roadless and undeveloped and, in many respects, still today as 
it was in frontier days. The last section of the Lewis and 
Clark trail that is still a trail, still a footpath through the 
forest, can be found here.
    High quality spawning habitat for salmon and steelhead are 
found in the Clearwater. These ocean-going fish are but just 
one tangible example of how the Clearwater is a national 
treasure. The Clearwater contains a myriad of sites sacred to 
the Nez Perce and today provides Idahoans of all ages 
unparalleled recreation experiences.
    As our Nation pauses to commemorate the bicentennial of the 
Lewis and Clark expedition, we should be gathered here to 
praise and protect the Clearwater to enhance protections, not 
to cast it to new and untested management regimes.
    Our primary concern with S. 433 is that it takes this very 
special part of our national forests, held in trust for all 
Americans, and places much of it in the control of a majority 
vote of 15 local people.
    I understand the frustrations that develop over Forest 
Service management, and I am not here to defend them, but I 
suggest that frustration with the agency in favor of a new 
group with no proven expertise or legal requirement for 
national interest stewardship is the wrong path.
    A few points of concern with the proposed legislation.
    The 5-year schedule of activities developed by the advisory 
panel would have a rushed environmental review that could lead 
to insulation from the protections of environmental law and 
weakens current planning and public participation processes.
    The 5-year schedule of activities would consolidate a wide 
variety of projects into one decision document, in effect, 
raising the stakes of legal challenge rather than lessening the 
impact of judicial challenge that is now focused on individual 
site-specific activities.
    Finally, from its beginning in the State of Idaho's Federal 
Land Task Force, we have seen a troubling yet fairly obvious 
objective: to weaken or eliminate the safeguards of 
environmental law and public involvement in order to promote 
and expedite logging and other commodity uses. We see this as 
contrary to the purposes of our Nation's public lands.
    Senator, as you know, the Idaho Conservation League 
regularly demonstrates an openness to engage in cooperative and 
collaborative projects on public lands. Success, unfortunately, 
has been modest in these endeavors. We would advise investing 
deeper in the collaborative projects now underway to create a 
record of success that we can all be proud of on the ground 
before legislatively forcing new processes on a very skeptical 
public.
    Collaboration comes from the bottom up and is based on 
local leadership and involvement. The situation has to be ripe 
and ready for people to come together and invest the needed 
time to succeed.
    For instance, in the Owyhee Canyonlands, at the invitation 
of the Owyhee County Commission, the Idaho Conservation League 
has been at the negotiation table with ranchers and other local 
interests for over 2 and a half years. This is unprecedented 
work and we did not need Congress to tell us to do it.
    Closer to the Clearwater, the Idaho Conservation League 
participated in the Meadow Face Pilot Stewardship Project on 
the Nez Perce. We also worked on the forest RAC's, are engaged 
in numerous discussions on fire and restoration in and around 
the wildland/urban interface. We are involved in the Clearwater 
Elk Collaborative and more.
    In summary, the Idaho Conservation League opposes S. 433 on 
several grounds, and these include that the Clearwater and Nez 
Perce National Forests contain some of the Nation's finest and 
most vulnerable unprotected wildlands. This is a place worthy 
of our Nation's greatest stewardship, not untested management 
schemes.
    S. 433 would set up a new set of regulations controlled by 
a few people, some with a commodity production mandate, to 
control the future of one of our most prized national 
treasures.
    And finally, we believe there is a growing role for 
cooperative projects on our public lands, but local involvement 
needs to start at home rather than be mandated by Congress. 
Collaboration is borne of trust, not force and comes in steps, 
not leaps.
    Thank you very much for the opportunity to participate in 
today's hearing.
    [The prepared statement of Mr. Johnson follows:]

     Prepared Statement of Rick Johnson, Executive Director, Idaho 
                     Conservation League, on S. 433

    Thank you for the opportunity to comment on S. 433. The Idaho 
Conservation League works to protect and restore the air, water, 
wildlands, and wildlife of Idaho, and for over thirty years the Idaho 
Conservation League has been an advocate for Idaho's outdoor values. 
The Clearwater Country is important to us: we have an office in the 
area, and our members hunt and fish, camp and hike, live and work, and 
otherwise enjoy this remarkable part of the West. We appreciate the 
opportunity to speak to you today.
    I have three points I'd like to make:

  <bullet> First, the Clearwater Basin is one of the nation's premier 
        forest landscapes and worthy of the highest stewardship and 
        protection.
  <bullet> Second, under the banner of local involvement, which we do 
        support, what would be actually be created is a new form of 
        exclusive command and control management over National Forests, 
        where national and regional values could all too easily be 
        usurped by special interests.
  <bullet> Finally, a purpose of this act is to ``improv(e) 
        collaborative relationships.'' The Idaho Conservation League is 
        very involved in a variety of collaborative forums, and we do 
        not need new laws to continue or improve them. We do, however, 
        need leadership and additional resources to allow them to 
        succeed.

                             THE CLEARWATER

    As we sit here in Washington, I'd like to share for the Committee a 
bit about this wonderful country Sen. Craig and I are blessed to call 
home.
    The Clearwater Basin as defined by this bill, is comprised of over 
2.7 million acres on the Clearwater and Nez Perce National Forests and 
is a national treasure. Over half of this 2.7 million acres is roadless 
and undeveloped, in man, respects still today as it was in frontier 
days and homeland to the Nez Perce Indians. In fact, the last section 
of the Lewis and Clark trail that is still a trail, still a footpath 
through the forest, can be found here.
    High quality spawning habitat for salmon and steelhead are found in 
the Clearwater. These ocean-going fish are but one tangible example of 
how the Clearwater is a national treasure. Commercial and sport 
fishermen, native tribes, and an entire Northwest identity are tied to 
these fish that travel from Idaho, to Washington, Oregon, and out to 
the sea and back again. The Clearwater contains a myriad of sites 
sacred to the Nez Perce, and today, provides Idahoans of all ages 
unparalleled recreation experiences in places like Kelly Creek, the 
Lolo Trail, the Lochsa River, Pot Mountain, Weitas Creek, and the 
Mallard-Larkins.
    As our nation pauses to commemorate the bicentennial of the Lewis 
and Clark expedition, we should be gathered here to praise and protect 
the Clearwater for all time, to enhance protections, not to cast it to 
new and untested management regimes. As Idahoans, the lands encompassed 
in this bill are anchors to our quality of life, our history, and 
indeed, our future. The Clearwater Country represents some of the 
finest examples of public land in our nation; as much as anywhere these 
are indeed our National Forests.

                                 S. 433

    Our primary concern with S. 433 is that it takes this very special 
part of our National Forests, held in trust for all Americans, and 
places much of it in the control of 15 local people.
    I understand frustrations that develop over Forest Service 
management. I'm not here to defend the US Forest Service. But I will 
suggest that frustration with one of our nation's most trusted agencies 
in favor of new command and control management from a new group with no 
proven expertise and no legal requirement for national-interest 
stewardship is the wrong path.
    This proposal originates in the deeply flawed Federal Lands Task 
Force, a State of Idaho scheme to take over portions our public lands. 
Our organization was involved in the early phases of this task force 
until it became clear that regardless of our input it was an industry-
controlled effort to maximize production.
    A few points of concern with the Clearwater project as we 
understand it:

  <bullet> The 5-year schedule of activities developed by the advisory 
        panel would have an rushed environmental review by the agency 
        that could lead to insulation from the protections of 
        environmental law.
  <bullet> The 5-year schedule of activities would consolidate a wide 
        variety of projects into one decision document lumping both 
        non-controversial projects with those raising greater concern 
        from the public. This, in effect, raises the stakes from 
        various legal challenges rather than lessening the impact of 
        judicial challenge now focused on site-specific projects.
  <bullet> Finally, from its very beginning in the State of Idaho's 
        Federal Land Task Force, we have seen a troubling yet fairly 
        obvious objective: weaken or eliminate the safeguards of 
        environmental law and public involvement in order to promote 
        logging and other commodity uses. We see this as a direct 
        conflict with the purposes of public lands generally, but 
        extraordinarily troublesome on the Clearwater, one of the 
        nation's greatest examples of unprotected, undeveloped National 
        Forest.

                             COLLABORATION

    My third point addresses a key goal of this legislation: to improve 
collaborative relationships. Now there are many in the conservation 
community who are very suspicious of collaborative processes. Such 
concerns are not without basis, but I am here as a conservationist 
willing to engage in such work.
    As Senator Craig well knows, the Idaho Conservation League has a 
long history and regularly demonstrates openness to cooperative and 
collaborative projects on public lands. Success, quite frankly, has 
been modest. We would advise investing deeper in collaborative projects 
now underway to create a record of success before legislatively forcing 
new processes on a very skeptical public.
    Collaboration comes from the bottom up, and is based on local 
leadership and involvement. The situation has to be ripe and ready for 
people to come together and invest the needed time to succeed.
    For instance, in the Owyhee Canyonlands, at the invitation of the 
Owyhee County Commission, the Idaho Conservation League has been at the 
negotiation table with ranchers and other local interests for over two 
and a half years. We hope to see legislation come from that process to 
this committee this year. This is unprecedented work, and we didn't 
need Congress to tell us to do it.
    Closer to the Clearwater, the Idaho Conservation League 
participated in the Meadow Face Pilot Stewardship Project on the Nez 
Perce Forest. This effort resulted in a good proposal with multiple 
benefits, but overall it failed because the goods-for-services concept 
of payment could not cover the costs of the project--a high-risk area 
with low value timber--and the conservation work we all agreed to do 
had no other means of funding.

                               CONCLUSION

    In summary, the Idaho Conservation League opposes S. 433 on several 
grounds. These include:

  <bullet> The Clearwater and Nez Perce National Forests contain some 
        of the nation's finest and most vulnerable unprotected 
        wildlands. This is a place worthy of our nation's greatest 
        stewardship, not untested management schemes.
  <bullet> S. 433 will set up a new set of regulations, controlled by a 
        few people--some with a commodity production mandate--to 
        control the future of one of our prized national treasures.
  <bullet> A finally, we believe there is a growing role for 
        cooperative projects on our public lands. But local involvement 
        needs to start at home rather than be mandated by Congress. 
        Collaboration is borne of trust not force, and comes in steps 
        not leaps.

    Thank you for the opportunity to participate in this hearing.

    Senator Craig. Rick, thank you very much.
    A couple of questions of both of you. I think we probably 
all share some of the same frustrations and maybe with 
different ways of getting at them. I am pleased to watch the 
Craig-Wyden RAC's at work. They appear to be working in many 
instances. They have tackled some reasonably tough issues, but 
not some of the larger issues that still plague us. I think 
that the task force addresses itself to that broader approach 
to some extent.
    Rick, I know you have concern and question and there is a 
great deal of good work that the Idaho Conservation League 
does.
    In the composition of the advisory panel on pages 4 and 5, 
we attempted to be as open and as inclusive as possible. What 
we are finding out--and I think you would agree to some 
extent--is that while not one size fits all, local input is 
extremely valuable sometimes and that while we can establish 
broad Federal guidelines that have to be met within a process, 
that we should not allow that Federal guideline to absolutely 
control the uniqueness of a given area, a watershed, as long as 
certain standards are met.
    In certain categories and in category 2 of an advisory 
panel, we talk about those from national environmental 
organizations, regional and local environmental organizations, 
dispersed recreational activity groups, archaeological and 
historical interests, national and regional fish and wildlife 
interests. That is in category 2. So we do reach out, as we 
have with the RAC's, to organizations like yours and even 
beyond yours to maybe national organizations who could 
participate in what is a collaborative process. Do you object 
to that?
    Dr. Johnson. No. We appreciate the opportunity and are 
frequently given the opportunity to both participate in formal 
and informal collaborative processes. The agency has full 
authority to, as you know, initiate advisory panels and things 
like that, and we are often called to do that.
    One of the challenges that we face, however, is despite the 
contention of some that the environmental movement is this 
huge, giant monolith, there really actually are very few of us, 
and the ability to adequately staff and participate in these 
often very time-consuming processes is frankly not easy. And 
the transportation, with all due respect, to get to the end of 
the road can sometimes be pretty challenging.
    We do, however, as citizen participants in public land 
processes in Idaho appreciate the opportunity and, as often as 
possible, take the opportunity to participate. I think, as you 
well know, there are many in the conservation community, 
however, that do not engage in collaborative processes and that 
frankly limits the pool.
    Senator Craig. I appreciate the commitment because both 
sides have to participate. They have to give time away from 
their jobs. Some are paid for doing it, some are not. But we 
all understand that in the public process in a representative 
democracy, I would much prefer the public to be making the 
decisions than a bureaucrat in some instances. While it is 
certainly the responsibility of an agency person to make sure 
that guidelines are adhered to, if we are to have some say in 
the way our local communities survive and the environments 
around them, there has to be a level of local participation.
    What we are striving for here--and I would think that 
Idahoans, be they of the community or of all of these category 
groups, would want to participate if the participation--and 
this is what is key--is meaningful. If it is simply to meet and 
meet and meet and then have a Federal agency say, well, that 
does not really count, we are going to go ahead and do it this 
way, I think that is what has frustrated us for so long and 
frankly, as you well know, has brought about the kind of 
conflict that has brought public land policy to a stalemate and 
in many instances, I would argue, might have created the loss 
of millions of acres of wildlands in the last several years.
    So what we are striving for here is to try to create a full 
participatory process, but to bring just a little of it home 
just to give Idahoans a little bit of the right, all Idahoans, 
to have a say in the management of these lands.
    As I say, to date because we have put incentive into the 
Craig-Wyden RAC's, they are working in many instances. Things 
are getting done. Folks who have been at conflict with each 
other for a decade are now becoming coffee cup friends, seeing 
that they can work together for the common good, and we have 
incentivized them to do so.
    Well, there are a good many questions I could ask, and I 
will leave it open. But is there any additional comment you 
would like to make to what I just said, Rick?
    Dr. Johnson. Well, I think one of the challenges that we 
face in Idaho and across the West right now is, as has been 
repeatedly mentioned, is the issue of fire in dealing with 
private property, in dealing with the communities that are 
adjacent. I would suggest for the record and just as fellow 
Idahoans here whether it is the red tree project or the red 
tree issue in the Sawtooth NRA or ponderosa overcrowding by 
Douglas fir in the Payette or cheat grass infestations all 
across the Snake River plain or then up in the Clearwater, the 
forest succession that is a result of the 1910 fire, that we 
have many, many big challenges in front of us dealing with the 
issue of fire in the West. It is quite accurately a ticking 
time bomb out there.
    But I think that we are perhaps a tad arrogant to suggest 
that a committee or a group of people putting together a group 
of projects is going to fix that. So in any circumstance, be it 
this bill, be it other bills, be it forest planning, I would 
hope that we do not become so enamored with some of these 
processes to suggest that that is what is going to fix the 
issue of too much forest succession and too much fire 
suppression in the Intermountain West.
    I would also close by just a reminder that ultimately there 
will be fires in the West and we will have to ask communities 
and fellow citizens to gather to deal with them. Nature always 
bats last.
    Senator Craig. Well, Rick, I thank you. We would like to 
have you, if you will, provide us with a variety of realistic 
changes or changes that you see as realistic in S. 433 that 
might help expedite some of these projects that deal with the 
situation around Elk City.
    Your last and closing comment is consistent with what I 
have just said and what I will say. You are absolutely right. 
We cannot fix the current circumstance. There is not enough 
money in the Federal Government. There is not enough time in 
the day for the next 20 years to resolve the dead and dying 
nature of 160 million acres of Federal forest lands, and some 
of them we would not want to fix anyway.
    But we did speak out this last year collectively as a 
Congress that around communities it is incumbent upon us to try 
to save them. To deny that opportunity is foolish because those 
are the projects we can affect. We can affect some urban and 
community watersheds and save them maybe. And I am not talking 
about broad and expansive reaches beyond the definition that 
would be millions or hundreds of thousands or tens of thousands 
of acres, not at all. But to know that Elk City is sitting 
there ready to burn and not to engage in a way that might 
create a reasonable and environmentally sound buffer around it 
is in my opinion foolhardy.
    As I turn to you, Susie, here is my concern about the 
uniqueness of that property and those people. A few years ago, 
Rick and Susie, I had the opportunity to visit Elk City again 
and the school. As I was walking up to the school, it was about 
noon hour. Two kids came out the front door of the school with 
fishing poles. They had just left a computer and they were 
headed out for the lunch hour and they were going to fish in 
the local stream behind the school. I thought at that time what 
a phenomenal, idyllic situation and environment to grow up in.
    Well, 100 of those 132 kids are no longer there. They had 
to leave because the community changed because there was 
nothing left for them to do there or their parents. I can 
accept those kinds of economic changes. I cannot accept them 
when they are arbitrarily and capriciously decided by a group 
outside of Idaho for the common good or the broader general 
good or philosophical need of interests. That is what 
frustrates me.
    And that is what we are talking about in Elk City at this 
moment. Now we are talking about survival not of a sawmill or 
of a job base, but of the homes.
    Susie, you are right in expressing your concern for fear. 
Last year 2,700 homes went up in smoke because the lightening 
either struck near or the winds took the lightening strike 
closer. And the gridlock on the Clearwater and the upper 
reaches is obvious. I had mentioned it to Dave Tenny in a 
meeting a year ago, and yet nothing has been done 1 year later 
after multiple promises, and the supervisor of that forest 
sitting right there and nodding his head all the way through 
it, and just weeks ago in Elk City saying he could not nor 
would he do anything. My goodness. Such power that local 
supervisor has or such an activity he has chosen to take. That 
is frustrating.
    Could you speak to us about that gridlock and specifically 
as it concerns the immediate area and what brought us to the 
task force and ultimately the legislation?
    Ms. Borowicz. The folks in the area around Elk City have 
been working consistently year after year after year after year 
meeting in workshops, going to meetings, working on the task 
force, trying to get things going, looking for opportunities, 
looking for something to help us out. I mean, this is not just 
an overnight thing. This has been going on for a long, long 
time. That is, I think, where most of our frustration level 
comes from is the promises being made and the excuses being 
given as to why things cannot happen. And we get the same thing 
year after year after year. And we go to the same meetings year 
after year, and things are not getting any better. They are 
getting worse.
    Senator Craig. I think you and Rick share that frustration, 
at least with the meeting cycle.
    Ms. Borowicz. I know what he is talking about because it 
does take a lot of time. The people in Elk city have to take 
time to go the meetings outside too. So it works both ways.
    The Clearwater Elk Collaborative came up with figures for 
2003 as to what is happening on the Nez Perce Forest, and there 
were 495 acres that were harvested on the entire forest in 
2003, compared to 40,000 acres that were burned. The 
percentages there are just phenomenal. It is .1 percent of the 
forest was harvested. That is .1 of 1 percent. Almost over 2 
percent of the forest was burned, and that includes not only 
the fires but also the fires that were set to maintain the 
habitat as well.
    It is just amazing the gridlock that we have got there and 
the things that are not happening in the places where there are 
opportunities for things to happen. When things come from the 
bottom up, I am the bottom. I mean, I am the community. I am 
one of the bottom people. And that is where it is coming from. 
It is coming from folks like me in the community on the bottom, 
coming up to you and asking you for the chance to make this 
opportunity happen, to have us help those forest people get 
along and get going and make these projects happen.
    Senator Craig. You mentioned the North Central RAC and that 
you thought that was a step in the right direction as regards 
collaboration. Do you feel the RAC process goes far enough or 
should go further?
    Ms. Borowicz. I would like you to attend one of our 
meetings for the North Central Idaho RAC. They are remarkable. 
There is a lot of give and take. Folks are listening. Both ends 
of the spectrum are there, everybody in between. It has got a 
wide representation. It is very good.
    Anytime you do write a bill, you always know that it is 
going to cover most situations, but it will not cover all 
situations. In this case, the Craig-Wyden bill is there as a 
framework, but it needs a little fine-tuning in this one 
particular situation. This might not apply to someplace else, 
but it does apply to our situation here. So by honing in on 
that one pilot project in this one area, you can do a lot of 
good and a lot of help. You cannot foresee, when you write a 
bill, all circumstances. That is not for us to do, but you do 
your best job when you do write a bill. But there is something 
that comes up and you have to clarify it and fine-tune it a 
little bit more, and that is where this would come in in 
connection, in partnership with the Craig-Wyden bill, which is 
phenomenal. I cannot say enough good stuff about it. It is 
working where we are.
    Senator Craig. Well, thank you both very much for your 
presence here today, your time out to come testify. I know you 
both appreciate these issues with passion and commitment. We 
will see if we can work our way through this one that can bring 
about the kind of balance that I think, Rick, you are concerned 
about and the kind of activity that Ms. Borowicz is concerned 
about. If we could accomplish those two things, we might just 
save Elk City, and in this instance I am not talking about 
saving its job base. I am talking about saving its physical 
structure because I am extremely concerned that that is a 
community destined to experience wildfire if we cannot in some 
way try to create an environmentally compatible buffer around 
it that assures the water quality and the sustaining of that 
community. It is a very real issue at this time.
    Thank you both for attending. For any additional comments, 
the record will be held open for the appropriate amount of 
time. We will work with both of you as we move legislation 
forward to see if it cannot be fine-tuned to gain especially 
groups like the Idaho Conservation League's support. We want 
them involved. We want you participating in the process so that 
action is compatible with as broad a majority or base of the 
interested parties in Idaho as we can create. Thank you all 
very much.
    The subcommittee will stand adjourned.
    [Whereupon, at 4:17 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                                    The Highlands Coalition
                                    Titusville, NJ, April 29, 2004.
Hon. Larry C. Craig,
Chairman, Subcommittee on Public Lands and Forests, Senate Committee on 
        Energy and Natural Resources, Washington, DC.

    Dear Chairman Craig: Thank you for the opportunity to testify 
before the Subcommittee on Public Lands & Forests in support of the 
H.R. 1964, the Highlands Conservation Act. We greatly appreciate that 
you scheduled a hearing on this important legislation, and your 
commitment to work with the sponsors to address the pressing land 
conservation and water protection needs in our densely populated 
region.
    I also appreciate your thoughtful questions to clarify the 
legislation and have done my best to respond to your questions below:
    Question 1. In your reading of the bill, who is responsible to 
choose the high priority projects to be proposed to the Secretaries: 
the Governors of the states, or the Forest Service?
    Answer. As I read the bill, the Governors of the Highlands states 
would propose the projects to the Secretaries. However, they would be 
limited to selecting projects from within areas identified as having 
high conservation value by the Forest Service. This process would be 
similar to the project selection process under the Forest Legacy 
Program in which the states submit projects from within eligible Forest 
Legacy Areas that have been previously approved by the Forest Service.
    Question 2. I am wondering if you can give me a better 
understanding of the total area of where the Highlands projects will be 
located. From the bill I know it is larger than 2 million acres. I also 
know it is within the Reading Prong and other similar ecological upland 
areas. But, can you help clarify not only the length of the Highland 
area, but also how wide an area is included?
    Answer. The extent of the Highlands region has been well defined in 
NY and NJ by the Forest Service in the NY-NJ Highlands Regional Study: 
2002 Update (see map enclosed*). Since completion of the Update, a team 
from the State and Private Forestry Division of the Forest Service has 
met with state, local and private partners in both CT and PA to define 
a study area boundary for an extension of the Update to the two states. 
The Forest Service has subsequently developed a draft map of the region 
in CT (enclosed), and is finalizing a map of the region in PA. In the 
interim, we have developed a revised draft map of the region in PA that 
we have provided to the committee that addresses the concerns that you 
have raised about the extent and integrity of the PA portion of the 
Highlands. We feel confident based on our most recent conversations 
with the Forest Service that this map is consistent with the agency's 
current thinking and we believe that it will go a long way toward 
addressing concerns raised by you and your staff.
---------------------------------------------------------------------------
    * NOTE: All enclosures have been retained in subcommittee files.
---------------------------------------------------------------------------
    The land area represented by our revised four-state map is 
approximately 3.3 million acres, and is clearly limited by geology and 
other scientific criteria. This figure is significantly larger than the 
actual Highlands landform because the boundaries are drawn to municipal 
lines, as per the methodology used by the Forest Service for ease of 
analysis and administration. Furthermore, only those portions of the 
area within this boundary identified by the Forest Service as having 
high conservation value would be eligible for the federal matching 
funds provided for in Section 5 of the Act. Thus the net area of focus 
would be far less than 3.3 million acres.
    The northern boundary along the entire length of the Highlands is 
clearly outlined by the broad Great Valley (an Ordovician formation), 
which separates the Highlands from the Ridge and Valley region. The 
southern edge of the Highlands is also limited by geologic lines, 
beginning with Cameron's Line in Connecticut down to the southern edge 
of the Diabase Hills in Pennsylvania--in effect the southern edge of 
the Appalachian region in these four states.
    The eastern boundary is limited by the Connecticut-Massachusetts 
line (where the Berkshire region begins), as indicated in the US Forest 
Service draft map, and the western limit in Pennsylvania is the 
terminus of the central Diabase Hills, a Jurassic-Triassic geologic 
formation that interlocks with the Reading Prong, ending close to the 
Susquehanna River. With this refined boundary in place, the approximate 
length of the delineated four-state region is now 250 miles, and the 
width averages approximately 30 miles.
    Question 3. I see in the legislation that the projects to be 
undertaken come from a couple of the lists in the 1992 Highlands Study 
and its 2000 update. I also see those studies only examined areas 
within the New York and New Jersey. Can you help us understand how the 
Governors or Secretaries can submit any projects from Connecticut or 
Pennsylvania given the current wording of the bill?
    Answer. The intent of the legislation is that the Forest Service 
would first have to identify areas that have high conservation value in 
Connecticut and Pennsylvania in order for projects in those states and 
areas to be eligible for funding under Section 5. Toward this end, we 
have worked with the delegations of both states to request funding of 
$500,000 in FY05 for the US Forest Service to complete an extension of 
the 2002 Highlands Study Update to the two states, thereby providing 
this necessary identification of eligible areas of high conservation 
value.
    An earlier version of H.R. 1964 included the following language in 
Section 5(c)(5) as an additional eligibility condition:

        (e) Other similar studies conducted by the Forest Service in 
        the Highlands region

    We feel that this or similar language should be included in the 
legislation to make explicit the opportunity for a Forest Service 
extension of the 2002 Study Update to trigger eligibility for projects 
from Connecticut and Pennsylvania.
    Question 4. I notice there is nothing in this bill that allows for 
a potentially impacted neighbor of one of these projects to voice his 
or her concerns in a formal process directed by the legislation. Let's 
say I am a neighbor to a parcel and I am worried about the added use 
that will occur as a result of an acquisition. Can you describe what 
alternative state process, for each state in the bill, would protect 
the interests of the individual neighbors involved?
    Answer. Under Section 5, in identifying projects for submission to 
the Secretaries, the Governors would be required to take ``input from 
pertinent units of local government and the public''. Given the densely 
populated nature of our region, it is generally very attractive to 
homeowners and landowners to have adjacent properties conserved as open 
space, since development of those properties typically has more impact 
on local traffic and their quality of life. Property values also tend 
to rise for homes adjacent to conserved lands.
    By requiring the states to take input from local governments and 
the public, the legislation, in my view, very appropriately leaves it 
to the states to determine how this input is provided. Clarifying 
committee report language could make it clear that neighbors on 
adjacent parcels of land be notified and given opportunity to comment 
on any proposed projects, and also that opportunity to comment come 
both during and after a project proposal. As a matter of course states 
typically adopt this approach, but clarifying this in report language 
would underscore its importance.
    Question 5. When we require full NEPA on even the simplest of 
federal projects in my state, and we are going to utilize up to 50% 
Federal funding to pay for these acquisitions, don't you think we 
should impose the Federal NEPA process on these projects in the 
Highlands bill?
    Answer. I do not read the bill as currently written to alter any 
requirements for review that might occur under NEPA. Given that NEPA 
review is not typically required for federal matching grants for land 
conservation projects through the Land and Water Conservation Fund, 
Forest Legacy, or other similar programs, we feel that adding any 
additional NEPA requirements to this legislation would be inconsistent 
with this precedent.
    Question 6. Would you support exempting some projects on federal 
lands in my state from NEPA if the state supports the projects?
    Answer. The mission and focus of the Highlands Coalition is limited 
to the four-state Highlands region and thus we do not get involved in 
any issues beyond our region. Again, I don't read this bill to alter 
any requirements that might occur under NEPA.
    Question 7. Does your organization have a position on outer 
continental shelf oil and gas drilling off the states of Connecticut, 
New Jersey, New York and Pennsylvania?
    Answer. This issue is beyond the scope of our mission and we have 
no position on it.
    Question 8. I note that the bill speaks to paying for the Federal 
share of these projects out of the Land and Water Conservation Trust 
Fund and other federal and general funds of the Treasury. Can you be 
more specific about what specific funds of the Treasury you would 
recommend using?
    Answer. This legislation is modeled after the state and federal 
partnership to conserve Sterling Forest in New York. In 1996, Congress 
approved $17.5 million from the federal Land & Water Conservation Fund 
to match state and private funds for the purchase of over 14,000 acres 
that are now part of Sterling Forest State Park. Our assumption is that 
funds authorized in Section 5 of the Act would be provided from the 
Federal Land & Water Conservation Fund. It is worth noting that as in 
the case of Sterling Forest, any projects undertaken through the 
Highlands Conservation Act would result in no new federal land 
ownership, and thus no new continuing federal obligations.
    Thank you again for your time and careful consideration of the 
Highlands Conservation Act. Please let me know if you need further 
clarification regarding any of these issues, or if there is any 
additional information we can provide.
            Sincerely,
                                         Thomas A. Gilbert,
                                                Executive Director.
[Enclosures.]
                                 ______
                                 
   Office of Congressional and Legislative Affairs,
                  United States Department of the Interior,
                                               Washington, DC 20240
Hon. Larry E. Craig
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the National 
Park Service to questions you submitted following the March 24, 2004, 
hearing on H.R. 1964, ``To establish the Highlands Stewardship Area in 
the States of Connecticut, New Jersey, New York, and Pennsylvania.''
    Thank you for the opportunity to provide this material for the 
record.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosures.]
                      Questions From Senator Craig
    Question 1. In your reading of the bill, who is the lead agency 
related to implementation, the Department of the Interior, or the 
Forest Service?
    Answer. In our reading of the bill as passed by the House, both the 
Secretaries of the Interior and Agriculture have a role to play in the 
implementation of the bill. The Secretary of the Interior has the lead 
in section 5 which provides a process by which a list of projects 
eligible for financial assistance are submitted to Congress. To be 
eligible, a non-Federal entity must enter into an agreement with the 
Secretary. Funds to carry out section 5 are authorized to be 
appropriated to the Department of the Interior, totaling $100 million 
over 10 years. The Secretary of Agriculture has the lead in section 6 
which provides that the Forest Service undertake further studies and 
research, communicate the findings of the studies, and assist in 
identifying and using relevant financial and technical assistance 
programs in the Department of Agriculture. Funds to carry out section 
6are authorized to be appropriated to the Department of Agriculture, 
totaling $10 million over 10 years.
    Question 2. Who is responsible for choosing the high priority 
projects to be proposed to the Secretaries. Is it the Governors of the 
States, or is it the Forest Service or someone else?
    Answer. It is my understanding that the Governors of the Highlands 
States, with input from units of local governments and the public, 
submit a list of proposed projects to the Secretary of the Interior. 
The Secretary of the Interior, in consultation with the Secretary of 
Agriculture, submits a list to Congress from the list provided by the 
Governor of those projects that are eligible to receive financial 
assistance as described in the bill.
    Question 3. I note that your agency has recommended finding other 
funding sources to pay for the costs of this bill. Could you provide us 
some alternative sources to consider?
    Answer. We believe that existing programs and authorities, such as 
Rivers, Trails and Conservation Assistance, Wild and Scenic Rivers' 
assistance, and the Land and Water Conservation Fund (LWCF), among 
others, could be used for. the purposes of the bill. For example, 
between 2000 and 2003, the Department has made LWCF grants available to 
the four states totaling over $46.6 million.
    Question 4. I see that your agency believed on June 17, 2003 that 
the bill ``does not authorize any activity not already authorized under 
current law.'' Was there anything added in the amendment process that 
changed that belief?
    Answer. No.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                 Three Rivers Timber, Inc.,
                                        Kamiah, ID, March 26, 2004.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: This letter will provide input for Three Rivers 
Timber, Inc., on 5.433, the. Clearwater Basin Project Act.
    Three Rivers Timber, Inc., is a family owned, small business 
sawmill operation located at Kamiah, Idaho. We employ 115 people in the 
mill, and provide contract jobs to log, truck, and build roads for an. 
additional 85 people. Raw material for our rurally located operation 
comes from private and state lands in the area. A small portion of raw 
material comes from the 4 million acre Forest Service land base 
tributary to our operation. In recent years, this federal source of 
timber supply has been gridlocked by procedural challenges that 
prevents it from significantly contributing to the raw material needs 
of converting facilities in the Clearwater Basin.
    During this period of gridlock, lack of active timber management 
has resulted in a serious decline in forest health and other resource 
values. Forest insect and disease problems continue unabated; resulting 
in an increase in serious wildfire events. Conditions are mounting for 
a large, catastrophic wildfire that will threaten local rural 
communities, and surely damage water and fishery resource values.
    In addition, during this period one of the premier public lands elk 
herd in the country has suffered a severe population crash caused by a 
lack of habitat. Due to the procedural gridlock in the last eight 
years, active management projects designed to provide elk habitat, 
particularly in winter range, have not moved forward as was supposed to 
happen under forest plan objectives, As a result, winterkill has taken 
the herd to low levels, and the herd has not significantly recovered 
despite relatively mild winters the last few years.
    Recently, new authorities, especially the Forest Health Initiative 
and National Fire Plans, have given the Forest Service new management 
tools. Unfortunately, there has not been a significant effort made at 
the local level to aggressively take advantage of these options. 
Further, we have . been involved in numerous collaborative efforts to 
develop community-based projects. All have failed to produce an 
implementable project. Either national environmental organizations have 
cleverly frustrated local solutions, or the Forest Service has 
internally not supported these innovative projects.
    The only projects to enjoy implementation have been produced by the 
North Central Idaho Resource Advisory Committee acting under the 
authority of the Craig-Wyden legislation. We believe these efforts have 
been successful because of the makeup of this particular RAC, and the 
unique feature of Craig-Wyden to control funding approval and 
allocation.
    We need S. 433, and strongly support prompt enactment. This unique 
legislation should have bipartisan political support as it can be 
implemented within all existing environmental and land management laws 
and regulations. It does not exempt decisions and implementing 
activities from administrative appeal and judicial review, if needed. 
It provides a collaborative framework to provide quality input from 
local publics, and to implement actions in a more efficient and timely 
manner.
    We also recommend use of the current North Central Idaho RAC, 
previously referenced, as the collaborative advising panel as outlined 
by S. 433. This group is in place, functioning efficiently, and can be 
quickly operational. This is an extremely important feature of S. 433, 
and key to finally getting projects on the ground. The RAC has 
demonstrated the ability to perform.
    We greatly appreciate the opportunity to comment on S. 433. It 
appears to us that this legislation demonstrates clear recognition of 
the serious decline of federal forests in the Clearwater Basin, and 
provides a tool to address this problem in timely fashion.

                                             Bill Mulligan,
                                                         President.
                                 ______
                                 
                              Clearwater Elk Recovery Team,
                                        Moscow, ID, March 26, 2004.
Energy and Natural resources Committee, U.S. Senate, Washington, DC.
Reference: Senate 433

    The Clearwater Elk Recovery Team (CERT) advocates for the creation 
and rejuvenation of elk forage on winter transition and summer range 
through logging and burning throughout the federal forests in. Idaho's 
Clearwater Basin. The CERT was first organized as a public 
collaborative group for the Stewardship Pilot Project, Middle-Black on 
the Clearwater National Forest. CERT members have participated in 
numerous public collaborative groups for projects such as the Meadow-
Face Stewardship Pilot Project and the Red River Stewardship Project on 
the Nez Perce National Forest. Most recently (January 2003-present) 
CERT members have taken part in Senator Mike Crapo's Clearwater Elk 
Collaborative.
    The CERT and an organization called Save Elk City worked together 
on the initial concepts and design of the Clearwater Basin Project and 
bill. The CERT believes in the need for strong elk herds and 
economically strong and safe rural communities. Our Clearwater Basin 
elk herds have been reduced in many areas to below self-sustaining 
levels due to lack of critical winter forage and predation by wolves, 
bears and. lions.
    Senate 433 will get action on the ground by focusing on the forage 
needs of elk and the economic and public safety needs of rural 
communities in the Clearwater Basin. Elk City residents live next to a 
time bomb created by diseased and dead forests that surround them. Elk 
need openings in the thick forests of the Clearwater and Nez Perce so 
that brush fields, grasses and forbs can provide them necessary 
nourishment.
    Federal forest officials in positions of leadership have failed 
local Clearwater citizens and a once world-renowned Clearwater elk herd 
by never adequately implementing the recommendations of citizen 
collaboration. Senate 433 will correct that situation. Utilize the 
Craig-Wyden Act's standing Regional Advisory Committee to implement a 
passed Senate 433 and we can begin the process of recovering forest 
health and elk in the Clearwater Basin.
    The CERT strongly supports passage of Senate 433.
            Sincerely,
                                                Ed Lindahl,
                                                             Chair.
                                 ______
                                 
                        Concerned Sportsmen of Idaho, Inc.,
                                         Viola, ID, March 26, 2004.
Energy and Natural Resources Committee, U.S. Senate, Washington, DC.
Reference; Senate 433

    The Concerned Sportsmen of Idaho, Inc. (CSI) fully supports Senate 
433. Passage of S. 433 will take care of treating dead and dying 
forests in the Clearwater Basin and provide necessary elk feed by 
creating disturbance in thick, fuel-choked, mid-seral forests in the 
Clearwater and Nez Perce National Forests.
    Healthy forests and healthy elk herds will contribute to the 
economic strength of rural communities and will make them safe from the 
ravages of catastrophic wildfires.
    Members of the CSI participated in drafting the Clearwater Basin 
Project and the CSI supports utilizing the presently constituted 
Regional Advisory Committee for project evaluation and approval.
    Please pass S. 433 quickly so that healthy elk herds and forest 
health can return to the Clearwater Basin.
            Sincerely,
                                              Jim Hagedorn,
                                                         President.
                                 ______
                                 
                             Society of American Foresters,
                                      Bethesda, MD, March 31, 2004.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Senate Committee on 
        Energy and Natural Resources, Washington, DC.
    Dear Chairman Craig: The Society of American Foresters advocates 
the development, authorization, and implementation of pilot projects to 
test alternative approaches for managing federal forest lands 
administered by the U.S. Forest Service and Bureau of Land Management 
(BLM). Pilot projects are needed to address and help resolve the 
ecological, economic, and social challenges presented by the currently 
complex and confusing statutory and regulatory framework that encumbers 
federal lands management decision making. Forest and range health, as 
well as productive uses of federal lands, have declined, partly as a 
result of these time-consuming and cumbersome decision-making 
processes. Through careful monitoring, well-designed locally-developed 
pilot projects can evaluate innovative ways to improve deteriorating 
ecosystem conditions through enhanced stakeholder collaboration and 
trust, consensus building, and efficiency, while meeting 
congressionally established goals for federal lands. Thus pilot 
projects can assist further refinement and implementation of federal 
land management reform at a broader scale.
    The SAF believes pilot projects should incorporate collaboration, 
public participation, environmental protection, long range planning, 
and multiple use and sustained yield principles. The inclusion of 
objective monitoring and assessment of on-the-ground results would 
greatly enhance the integrity and scientific validity of pilot 
projects. The SAF supports the further development and implementation 
of existing pilot projects and additional new projects.
    The Clearwater Basin Project Act (S. 433) would create a pilot 
project on the Nez Perce and Clearwater Forests in Idaho, allowing the 
Agencies to work with local stakeholders in developing, implementing, 
and monitoring projects and activities on these forests. This bill 
would maintain environmental protections through NEPA, the Endangered 
Species Act, FLPMA, and all other applicable laws; maintain consistency 
with land and resource management plans; and provide opportunities for 
public participation, through an Advisory Panel and through public 
meetings, public comment periods, and appeals and judicial review. 
Thus, the SAF supports S. 433 as means to test new processes on these 
two National Forests.
    The SAF strongly supports the efforts in this legislation to 
improve and expedite NEPA processes through tiering. Tiering maintains 
environmental review while removing redundancies in this review. The 
SAF also applauds the inclusion of monitoring and encourages 
flexibility to utilize the lessons learned through this monitoring via 
adaptive management.
    SAF encourages Congress to consider the creation of additional 
pilot projects in other regions of the country.
    Thank you for your consideration.
            Sincerely,
                                   Michael T. Goergen, Jr.,
                                     Executive Vice-President, CEO.
                                 ______
                                 
            Statement of Friends of the Clearwater on S. 433

    Friends of the Clearwater appreciates the opportunity to submit 
this written statement on S. 433, the Clearwater Basin Project Act. We 
request that these comments be included in the hearing record on this 
legislation. Friends of the Clearwater is a Moscow, Idaho-based, local 
conservation organization focusing primarily on the public lands in the 
Clearwater basin including the Clearwater and Nez Perce National 
Forests.
    These public wildlands contain many unprotected roadless areas and 
wild rivers, and provide crucial habitat for countless rare plant and 
animal species. Nearly 1.4 million acres of this project area consists 
of inventoried roadless land--areas that are crucial for fish and 
wildlife such as salmon, bull trout, steelhead, lynx, wolverine, 
fisher, and goshawk. Recent research has shown the Clearwater Basin is 
the most important area, including Yellowstone and Jasper National 
Park, in the Rocky Mountains of the US and Canada for the recovery of 
large carnivores. This area is also a hot spot for endemism and genetic 
diversity.
    We are concerned this bill would exclude most of the public from 
having an effective voice on public forest management rather than 
foster cooperation. This bill would greatly diminish the role of NEPA--
the law that provides all citizens the same rights to participate. This 
bill could have a detrimental effect on the public assets, resources, 
and values held by all Americans.
    Section 2 defines this as a pilot project. That is the exact 
language used by the State of Idaho's study called the Federal Lands 
Task Force. The goal of this study is to privatize public lands. This 
pilot project is the implementation of one of those proposals.
    Section 2 also emphasizes stewardship contracting. That authority 
already exists; this bill is redundant. In any case, stewardship 
contracting has a poor track record in the region. Of the two 
stewardship contract projects in this region, it looks like neither is 
fiscally workable The stewardship contract for the Meadow Face project 
(Nez Perce National) received no bidders. It looks likely the Middle-
Black project (Clearwater National Forest) may not work as a 
stewardship contract for economic reasons.
    The local advisory committee make-up in section 3 would be largely 
special interests reflecting economic and/or extractive users of public 
land. Public lands are not well served by a model that amplifies a 
commodity/extractive interest over the public interest.
    It is also important to note all committee members must be Idaho 
residents, ``and to the extent practicable, within or adjacent to the 
pilot project area.'' That effectively precludes participation from the 
majority of the public. Ironically, much of the Clearwater and Nez 
Perce National Forests are closer to towns in Montana than any town in 
Idaho. This provision also precludes participation of entities such as 
Columbia River Basin Tribes in Oregon and Washington whose treaty 
rights are directly affected by activities on the Clearwater and Nez 
Perce National Forests.
    This committee operates by a majority vote. Most so-called 
collaborative processes operate by consensus.
    Even though the State of Idaho's Public Lands Task Force pilot 
project omitted the Wilderness, section 4 of this bill seems to 
indicate this project would apply to all of the Lochsa, Powell, North 
Fork, Moose Creek, Red River/Elk City, and Clearwater Ranger Districts. 
As such, that includes most of the Selway-Bitterroot and some of the 
Gospel Hump and Frank Church-River of No Return Wildernesses. One of 
the stated reasons for this legislation is restoration of ecosystem 
health--a topic of much uncertainty and controversy. The science behind 
the ICBEMP shows the areas with the greatest integrity are wilderness 
and roadless lands. Thus, the inclusion of wilderness and roadless 
lands in this legislation is puzzling.
    Section 4 makes the committee more than advisory as its schedule 
becomes the priority and drives national forest management. Since the 
projects themselves are labeled ``priority'' in the legislation, they 
become more important than projects that go through the normal agency/
public processes. This section also requires the Forest Service to do 
NEPA and other law compliance on a draft 5-year project list within one 
year, approve the final schedule within thirty days, and implement the 
projects. It seems that the whole schedule would be approved in one 
decision document rather than on a project level as required by NEPA 
and NFMA. Currently, the agency evaluates projects according to the 
forest plan and related priorities.
    The schedule requires consultation, not concurrence, from the 
Forest Service and Nez Perce Tribe. There is only one provision for the 
Forest Service to reject the schedule, and that is in the final 30 day 
NEPA review period. The committee selects and therefore drives 
management on the Clear-water and Nez Perce National Forests.
    It seems that noncontroversial projects would be thrown in the same 
mix as controversial ones. This is not sound policy. Also, mixing five 
years worth of projects into one document or analysis can't meet 
quality standards of thoughtful site-specific analysis.
    The bill notes in the last sentence of Section 4(d)(4) that:

        ``The schedule may include any amendment of the applicable 
        forest land and resource management plan that the advisory 
        panel recommends or that the applicable Forest Supervisor 
        determines is necessary to allow or facilitate implementation 
        of one or more activities in the schedule.''

    This part of the bill will basically make forest planning 
meaningless, especially coupled with section 4(f)(3). For example, the 
committee could suggest wholesale changes to the forest plan standards 
and guidelines intended to maintain water quality. Since the Forest 
Service and Nez Perce Tribe only need to consult with the committee on 
the list, these could go forth under analysis even if they were not 
agency priorities.
    There is a real danger that non-priorities could get moved up the 
agenda in this political process. While the Forest Service could reject 
a project in the final stage, there is no mechanism to prevent projects 
from being analyzed by the agency. Rather than create efficiency, this 
bill would create a process that could waste agency time.
    The proposed bill states Sec. 4(f)(3):

        ``If any review, consultation, or coordination required under 
        the National Environmental Policy Act of 1969 or other law has 
        not been completed for a schedule within the required one-year 
        period, the lack of completion shall not be a basis for 
        challenging or delaying submittal, approval, or implementation 
        of an activity in the schedule, if the applicable Forest 
        Supervisor, in consultation with the advisory panel, finds that 
        sufficient review, consultation, and coordination regarding the 
        activity has occurred and a sufficient record exists to make a 
        reasoned decision regarding approval of the activity.''

    This would effectively do away with NEPA, NFMA, the ESA and largely 
take the public out of public land management. In other words, these 
laws are discretionary based upon the whims of a committee and the 
Forest Supervisor. Public accountability is reduced in this process.
    This section assumes a project-centered approach that may not be 
appropriate for much of the area. Biological constraints such as 
carrying capacity are not mentioned in the legislation and there seems 
to be an implicit assumption that those real constraints are 
irrelevant.
    Section 5 requires monitoring by the Forest Service but does not 
spell out what parameters are to be monitored. This section also 
suggests that the University of Idaho's College of Natural Resources 
monitor implementation as well. The University of Idaho's funding 
problems are well known. Asking them to do more in this current fiscal 
climate could put an additional burden on the institution. It is not 
clear that the U of I would receive appropriated funding for monitoring 
like the Forest Service.

                                SUMMARY

    It seems the legislation is based upon an assumption the current 
public process doesn't work, at least for some who want to run the 
show. It is true democracy is a messy process. However, legislating 
significant diminution of public involvement and public processes by 
establishing imperfect surrogates and requiring strict timelines won't 
result in less controversy or better decisions. It will only increase 
conflict.

                                 ______
                                 
             Statement of The Wilderness Society on S. 433

    The Wilderness Society appreciates the opportunity to comment on S. 
433, the Clearwater Basin Project Act, and requests that our comments 
be included in the hearing record on this legislation. The Wilderness 
Society is a national environmental organization with 200,000 members 
and eight regional offices. Founded in 1935, The Wilderness Society 
works to protect America's wilderness and develop a nationwide network 
of wildlands through public education, scientific analysis, and 
advocacy.

                          CONCERNS WITH S. 433

    The Wilderness Society has serious concerns about the proposed 
legislation because it would weaken environmental safeguards and unduly 
complicate management planning in one of the nation's outstanding 
wildland areas. Rather than pursuing a flawed and controversial 
``charter forest'' in the Clearwater Basin, we recommend that Congress 
provide additional funding to enable the Forest Service to accomplish 
needed stewardship work in the Basin.
    The proposed Clearwater Basin Pilot Project Area affects 2,719,000 
acres of federal land within the Clearwater and Nez Perce National 
Forests. The streams and forests of these federal lands provide 
exceptional water quality, wildlife habitat, and wilderness resources, 
including some of the best habitat in the lower 48 states for salmon, 
steelhead, lynx, and wolf. More than half of the Project Area--
approximately 1.4 million acres--consists of inventoried roadless 
areas.
    The bill authorizes an unwieldy and burdensome decision-making and 
environmental review process for the Pilot Project Area. First, the 
Secretary of Agriculture would appoint a 15-member Clear-water Advisory 
Panel (CAP), which would have the responsibility to develop a proposed 
5-year schedule of high priority management activities in the 
Clearwater Basin. The Forest Service would have the impossible burden 
of completing within 1 year all the environmental analyses, endangered 
species consultations, public involvement, and any other consultation 
and coordination on the proposed activities. The CAP would then 
recommend a final 5-year schedule to the Forest Service for approval. 
Upon approval of the schedule, ``the Forest Service may issue any 
permits, contracts, or other authorizations for activities in the 
schedule without further review, consultation, or coordination under 
the National Environmental Policy Act of 1969 or other laws.'' Sec. 
4(h) (emphasis added). Apparently, the 5-year schedule would be subject 
to administrative appeal, but the individual project authorizations 
would not. While the 5-year schedule would be subject to judicial 
review, citizens would be barred from challenging the projects based on 
incomplete environmental analysis. After 5 years, the process would 
start again, with the CAP proposing a second 5-year schedule of 
activities. The bill also authorizes 3 stewardship contracts within the 
project area. The pilot project would be authorized to continue until 
at least 2012.
    The proposed pilot project has several major problems. Most 
important, it would be extremely difficult for the Forest Service to 
conduct an adequate site-specific environmental review of a 5-year 
schedule potentially involving dozens of projects scattered over 
thousands of acres. The bill implicitly recognizes this problem by 
imposing a 1-year deadline on the environmental review and consultation 
process and giving the CAP and Forest Service power to deem the process 
``sufficient.'' Sec. 4(f)(3). Very likely, the Forest Service would be 
rushed into doing a superficial analysis of environmental effects and 
providing minimal opportunity for public involvement for anyone except 
CAP members. Consequently, environmentally damaging projects could be 
proposed with inadequate scientific and public review, thus 
jeopardizing the endangered salmon and other exceptional environmental 
values of the Clearwater Basin.
    The pilot project is also extremely risky because all the 
activities included in the 5-year schedule would be highly vulnerable 
to legal challenge. Ordinarily, environmental appeals and lawsuits 
focus on a relatively small number of controversial activities (like 
large timber sales and road-building projects), allowing non-
controversial activities to be implemented. However, the bill 
essentially requires that the analysis of all projects must be 
completed before any project can be implemented. By bundling all of the 
CAP-proposed activities into a single decision document(the 5-year 
schedule), the bill practically invites a ``train wreck'' of complete 
gridlock in the Clear-water Basin. This is not the way to build 
collaborative relationships over federal land management.
    Another problem with S. 433 is that it would duplicate legal 
authorities already provided by Congress. The bill's authorization of 
three stewardship contracts is redundant, since Congress last year 
provided broad stewardship contracting authority to the Forest Service 
for the next ten years (Section 323 of Public Law 108-7, 16 U.S.C. 2104 
note). Also, direction to create the Clearwater Advisory Panel is 
unnecessary, since the Forest Service already has ample authority and 
direction to establish advisory boards for these national forests under 
the National Forest Management Act (16 U.S.C. 1612(b)).

                 PILOT PROJECTS AND ``CHARTER FORESTS''

    The Clearwater Basin Pilot Project originated as one of five pilot 
projects proposed by the Idaho Federal Lands Task Force that would give 
local and state officials greater control over nearly half of Idaho's 
national forests. The Bush Administration in 2002 suggested 
establishing ``charter forests'' within the National Forest System, 
based on proposals by the Idaho Task Force and others.
    The Wilderness Society strongly opposes the concept of charter 
forests. The national forests are a cherished part of America's natural 
landscape and social fabric. Currently, the Forest Service must abide 
by various federal laws, policies, and plans to protect fish habitat 
and other environmental values in all the national forests. Since these 
are federal public lands, the agency must consider the interests and 
concerns of all Americans, including future generations, in determining 
appropriate management. However, under a charter forest, local 
interests and concerns would take priority, and non-local viewpoints 
inevitably would take a back seat.
    The Clearwater Basin is a good example of why turning national 
forests into locally-governed charter forests is a bad idea. The 
Clearwater and Nez Perce National Forests provide critical spawning 
habitat for salmon and steelhead that migrate through the Snake and 
Columbia Rivers to the Pacific Ocean. Those anadromous fish are vitally 
important to commercial and sport fishermen, the tourism industry, 
Indian tribes, and the general public in Oregon, Washington, and 
elsewhere, far beyond the Idaho border. Yet, the State of Idaho and 
local interests would presume to balance the salmon habitat protection 
interests of all Americans with the logging, grazing, and mining 
interests of local residents.
    We are very concerned that the underlying objective and effect of 
charter forests would be to weaken or eliminate environmental 
safeguards and public participation, while promoting logging and other 
commodity uses of the national forests. Turning national forests into 
charter forests to be managed by local boards for local interests is a 
fundamentally flawed idea that will never fly with the American people.

                       COLLABORATION AND FUNDING

    While the bill states that the purpose of the Clearwater Advisory 
Committee is to ``improv[e] collaborative relationships,'' we believe 
that the pilot project would have the opposite effect. Based on The 
Wilderness Society's experience with collaborative processes in Idaho, 
Oregon, and elsewhere, we have learned that the collaboration can be a 
productive way to bring diverse interests together to identify and 
advance mutual goals. However, collaboration takes a lot of time and 
patience to find common ground; it is probably not the key to speeding 
up decisions, cutting red tape, or increasing efficiency in federal 
land management. Existing public participation and planning processes--
while often frustrating--at least are somewhat reliable and well 
understood.
    We believe it would be a serious mistake for Congress to impose 
deadlines, assign specific procedures, or otherwise attempt to 
formalize collaborative efforts. Collaborative groups need to be able 
to develop their own rules and procedures, based on their unique make-
up. They can function effectively and creatively as informal advisors 
to the federal land managers, complementing--rather than replacing--
public participation laws and processes. Also, any effort to turn over 
control of federal lands to local interests would be extremely divisive 
and polarizing, likely leading to environmental boycotts of 
collaborative efforts and further gridlock of federal land management.
    The Wilderness Society is a member of a collaborative group that 
Senator Crapo called together to discuss elk populations on the 
Clearwater National Forest. One mutual goal is that the conservative 
elk hunters, like The Wilderness Society, want the Forest Service to 
expand its use of prescribed fire and allowing wildfires to burn. The 
Clearwater National Forest allowed more wildfires to burn this year, in 
part because of the growing recognition of the benefits of wildland 
fire. The Wilderness Society would never have participated in this 
collaborative had the intention been to short circuit or circumvent 
existing laws and procedures.
    Congress can and should encourage the positive work of broad-based, 
inclusive collaborative groups in Idaho and elsewhere by providing more 
financial assistance. Restoration and monitoring of federal lands 
traditionally have been hampered by severe shortage of funding. 
However, these activities hold the greatest promise for gaining broad-
based collaborative support and energy. The Forest Service has many 
restoration projects that are stalled simply due to lack of funds. Some 
money has become available for restoration and monitoring through the 
federal county payments Title II program adopted by Congress in 2000, 
but more funds are needed to achieve on-the-ground results. Funding is 
also needed to help collaborative groups operate effectively and to 
train local workers in restoration-oriented job skills.
    Unfortunately, S. 433 provides no dedicated funding to accomplish 
the stewardship work that the bill purports to encourage. The Forest 
Service would have to take money away from similar work in other 
regions of the country in order to pay for the Idaho pilot project.

                               CONCLUSION

    The Wilderness Society opposes S. 433 and strongly recommends that 
Congress steer clear of the charter forest concept. Instead, policy-
makers should focus on ways to help collaborative groups and federal 
land managers succeed in putting people to work restoring the 
ecological integrity of public lands, for the benefit of all Americans.

                                 ______
                                 
 Statement of Anthony D. Johnson, Chairman, Nez Perce Tribal Executive 
                 Committee, Nez Perce Tribe, on S. 433

    On behalf of the Nez Perce Tribe, I would like to thank the 
Committee for allowing the Tribe this opportunity to share its views on 
the Clearwater Basin Project Act (S. 433). The bill as written is 
intended to provide for enhanced collaborative forest stewardship 
management within the Clearwater and Nez Perce National Forests in 
Idaho, and as such will certainly effect the Nez Perce Tribe. As 
previously conveyed to the Energy and Natural Resources Committee 
through correspondence, the Tribe has concerns that the bill 
unnecessarily replicates processes already in place and weakens 
environmental laws. However, if the bill is enacted there are 
amendments that the Tribe would like included in order to ensure that 
involvement of the Tribe will be guaranteed and adequate appropriations 
authorized.
    The Tribe believes that establishing the Clearwater Advisory Panel 
is duplicative of an existing legislative process. Section 3 of the 
bill establishes the Clearwater Advisory Panel, ``for the purpose of 
improving collaborative relationships and providing advice and 
recommendations to the Forest Service.'' However, the region already 
has a North Central Idaho Resource Advisory Council (the RAC) that 
currently recommends projects to the Clearwater and Nez Perce National 
Forests for implementation. The RAC was established under Section 205 
of the Secure Rural Schools and Community Self Determination Act of 
2000 (Public Law 106-393).
    Similarly, collaboration and cooperation between local stakeholders 
already occurs. In addition to the RAC, the Forest Service actively 
engages local communities and stakeholders when they are designing 
projects. Leadership on both national forests design projects with the 
timber industry, elk habitat (burning and thinning) and fish habitat 
(road decommissioning and culvert replacement) in mind. Additionally, 
under the leadership of Senator Crapo, a collaborative process has been 
formed with local industry, environmental groups, the Tribe and others 
to develop projects to benefit elk.
    Section 4 of the bill authorizes 3 stewardship contracts. However, 
stewardship contracting already exists. Stewardship contracting 
authority is now a permanent tool that the Forest Service can use for 
selling timber and providing other services such as road and trail 
maintenance or fish and wildlife projects. On February 20, 2003, 
Section 323 of Public Law 108-7 authorized the Forest Service and the 
BLM to implement stewardship end result contracting provisions.
    In the event that this legislation is advanced by the Subcommittee, 
the Tribe would like to see that section 4 is amended in order to 
ensure that environmental analysis required under existing law is not 
diluted or eliminated. Section 4(f) discusses the NEPA requirements and 
other legal requirements for the five year schedule of activities and 
specific projects. This section significantly reduces the level of 
environmental analysis under NEPA and the ESA. Section 4(f)(1) requires 
the Forest Service to complete all environmental analysis and 
consultations within one year of the submission of the five year 
schedule. Section 4(f)(3) states that if any legal requirement is not 
met within that one year requirement, then the Forest Service's failure 
to meet the legal requirements is not a basis for challenging a 
project. The five year schedule must then be approved by the Forest 
Supervisor, and that approval is subject to administrative appeal, but 
presumably not on grounds such as NEPA or the ESA. The five year 
schedule presumes that sufficient time should be allocated for 
activity-specific environmental analysis. This section is written 
loosely enough to be interpreted that there is no requirement to 
complete environmental analysis on the five year schedule or on 
specific activities contained in the schedule, effectively ignoring 
environmental laws.
    The Nez Perce Tribe also requests that this legislation be amended 
to specifically state that the Forest Service is authorized to enter 
into stewardship, action design, NEPA compliance activity, action 
implementation, and monitoring contracts with the Nez Perce Tribe. The 
Tribe has the demonstrated capability of performing such work, and has 
a strong interest in ensuring that work performed in national forests 
on and adjacent to the Reservation is carried out in a professional 
manner protective of tribal treaty resources.
    Finally, the Tribe would like the Subcommittee to include in 
section 6(a)(2) authorizing language for appropriations adequate for 
the Tribe to provide the technical assistance provided for in section 
4(d)(2) of the bill. Tribal technical assistance would include input 
from a tribal interdisciplinary team including cultural, fisheries, 
water, wildlife, soils, forestry, fire ecology tribal interests.
    In summary, the Nez Perce Tribe believes that this proposed 
legislation is repetitive of existing efforts, but if it goes forward 
it requires amendments to ensure compliance with existing environmental 
laws, clarification that the Forest Service can contract with the Tribe 
to perform activities authorized by the legislation, and inclusion of 
an appropriations authorization sufficient to ensure that the Tribe can 
provide the necessary technical assistance.
    Thank you for the opportunity to share the views of the Nez Perce 
Tribe with respect to this legislation.
                                 ______
                                 
                                         State of New York,
                                        Albany, NY, March 22, 2004.
Hon. Larry E. Craig
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: New York State strongly supports the proposed 
Highlands Conservation Act (H.R. 1964) currently pending before the 
Senate Energy and Natural Resources Committee.
    The State has worked for many years with the United States Forest 
Service and the Department of Interior on issues related to the 
conservation of the Highlands region. We also have worked closely with 
Congresswoman Sue Kelly, in whose District much of the Highlands region 
in New York is included, on the current version of the legislation.
    The legislation is respectful of New York's long tradition of 
``home rule'' and requires that any land acquisition activities that 
would take place as a result of the legislation would be voluntary in 
nature and conducted strictly on a willing seller/willing buyer basis, 
based on priorities identified by the State in consultation with local 
governments, conservation organizations and citizens in the region.
    The legislation also authorizes funding for implementation of best 
management practices on private forest land, which will help maintain 
lands in private ownership while ensuring that these lands will also 
contribute to water quality protection and other environmental values.
    Congress has an excellent opportunity this year to help the States 
of New York, New Jersey, Pennsylvania and Connecticut to conserve this 
important region. The attached testimony from our State Commissioner of 
Environmental Conservation, Erin M. Crotty, outlines in greater detail 
the State's position of support for this legislation.
    I appreciate your consideration of this legislation.
            Very truly yours,
                                          George E. Pataki,
                                                          Governor.
                                 ______
                                 
           Statement of Bonner R. Cohen, Ph.D., on H.R. 1964
    Good afternoon, my name is Bonner Cohen. I am a senior fellow with 
the National Center for Public Policy Research in Washington, D.C. and 
a member of the Board of Directors of the American Policy Center in 
Warrenton, Virginia. I want to thank Chairman Craig and the other 
members of the subcommittee for the opportunity to comment on the 
``Highlands Conservation Act,'' H.R. 1964.
    I believe the legislation under consideration by this subcommittee 
is flawed in several key respects. At a fundamental level, it equates 
government ownership of land with conservation, an idea our Founding 
Fathers would have found amusing, to say the least. At least 40 percent 
of the land area of the United States is owned by government--federal, 
state, and local. Much of this land is poorly managed--from overgrown, 
disease-ridden national forests that routinely spawn catastrophic 
wildfires, to national parks that are in such a state of disrepair that 
the Park Service estimates it will take $5 billion and many years to 
undo the damage. To set aside more hard-earned taxpayer dollars for 
additional land acquisitions, in the name of conservation, is to ignore 
the disastrous environmental consequences of the already bloated public 
estate.
    Unfortunately, this is exactly what the Highlands Conservation Act 
does. The bill will increase the size of the public estate in the 
Highlands region. In doing so, it will pose a severe threat to the 
rights and livelihoods of property owners in the targeted area. While 
the bill gives property owners the right to decline selling their 
lands, this ``willing-seller'' provision is illusory. In the real 
world, there is no such thing as a ``willing seller.''
    In the case of the Highlands Conservation Act, ``non-federal 
entities,'' also known as non-governmental organizations (NGOs), with a 
clear political agenda will identify lands for ``management'' and will 
oversee the ensuing conservation actions. Few landowners will be able 
to withstand the pressure of environmental groups working in concert 
with state and local governments, eager to acquire private lands with 
taxpayer money. As the public estate in the region grows, the value of 
adjacent private lands will diminish. And, as property values decline, 
landowners will have little choice but to sell their land at a fraction 
of its former worth.
    Furthermore, the removal of private land from the tax roles will 
have a devastating effect on local revenues. Raising property taxes on 
the remaining private lands will be the only way local governments can 
make up the revenue short-fall. This, in turn, could force additional 
landowners to sell their property to the government.
    We are told that the bill will cost $100 million, to be disbursed 
in $10 million increments between 2005 and 2014. But there is nothing 
in the bill that prevents Congress from continuing appropriations 
beyond 2014. Similarly, the scope of the bill is currently limited to 
some 2 million acres in Pennsylvania, New York, New Jersey, and 
Connecticut. But there is nothing in the legislation to keep the area 
from being expanded to include highland areas in, say, Maryland and 
Vermont. In fact, the bill grants the U.S. Forest Service the right to 
continue land assessments studies and provides $1 million toward that 
end. As such, the legislation is an open-ended invitation for 
government and its carefully selected "partners" to lock up more land.
    Indeed, equally disturbing is the cozy relationship the Highlands 
Conservation Act envisages between government and certain NGOs. The 
governors of the four states currently covered under the bill will 
identify lands in the Highlands region for management, based on 
recommendations made by state and local environmental organizations. 
These suggestions will then be forwarded to officials at the 
Departments of Interior and Agriculture for review, who will submit 
final recommendations to Congress for the purpose of appropriating the 
50 percent federal share of matching funds.
    Once this process has been completed, the NGOs will set about 
overseeing and managing the lands they themselves played a large part 
in identifying. As a sign of just how cozy the relationship is between 
the NGOs and the various government entities involved in the Highlands 
Conservation Act, one of these groups, the Palisades Interstate Park 
Commission, is specifically cited in the bill.
    Allowing these organizations--elected by no one and accountable to 
no one--to join forces with friendly state regulators supported by 
federal funds and impose land-use restrictions on unsuspecting property 
owners makes a travesty of representative democracy. While the bill 
keeps federal bureaucrats largely out of the land-management decisions, 
is simply replaces them with state regulators and allied environmental 
groups. To the landowner, this is a distinction without a difference.
    At a time of skyrocketing budget deficits at the federal, state, 
and local level, using scarce taxpayer dollars to acquire more land--
taking it out of productive use and removing it from the tax rolls--
makes no economic sense. The key to an economically and environmentally 
vibrant rural America does not lie in government ownership of land. 
American agriculture leads the world not because the land is owned by 
the government and managed by politically favored NGOs, but because it 
is under the stewardship of farmers whose livelihoods depend on how 
they use and conserve their land.
    The Highlands Conservation Act ignores this lesson. If enacted, it 
will be harmful for the people in the Highlands and their environment.
    Thank you very much.

                                 ______
                                 
Statement of Erin M. Crotty, Commissioner, New York State Department of 
                Environmental Conservation, on H.R. 1964

    Senator Craig and members of the Subcommittee on Public Lands and 
Forests, thank you for providing the New York State Department of 
Environmental Conservation with this opportunity to present our 
testimony on H.R. 1964, the Highlands Conservation Act. The enactment 
of this legislation can do much to enhance the comprehensive open space 
conservation program that has been a cornerstone of the administration 
of New York Governor George E. Pataki, and it has the strong support of 
the New York State Office of Parks, Recreation, and Historic 
Preservation as well as the Department. On behalf of Governor Pataki 
and my sister New York State agencies, I want to express our 
appreciation to the Subcommittee for agreeing to hold a hearing that 
includes this important legislation.
    The Highlands spreads like a necklace of green around the New York 
metropolitan region, stretching from Pennsylvania through Southeast New 
York and Northern New Jersey to Northwest Connecticut. The region in 
New York, about 629,000 acres encompassing all or part of 25 
municipalities in five counties, contains rolling forested hills, 
pristine streams and wetlands, historic sites, special geologic 
features and exceptional scenic vistas and various State parks, 
including Sterling Forest, Harriman, Bear Mountain, Hudson Highlands 
and Fahnestock, as well as several State Forests and Wildlife 
Management Areas.
    The Hudson Highlands has long been identified as an important 
resource area in many studies and is included as a priority project in 
New York State's Open Space Conservation Plan. Under Governor Pataki's 
leadership, the State has worked in partnership with local governments, 
conservation organizations, the federal government, the interstate 
Palisades Interstate Park Commission and the State of New Jersey to 
conserve outstanding portions of the Highlands.
    Indeed, since 1995, the State has acquired 26,777 acres in the 
Highlands area which includes:

  <bullet> The acquisition of 18,044 acres to create Sterling Forest 
        State Park in Orange County;
  <bullet> The 794-acre Wonder Lake State Park in Putnam County;
  <bullet> 5,197 acres of additions to Clarence Fahnestock State Park, 
        Putnam County;
  <bullet> 2,458 acres to create Schunnemunk State Park, Orange County;
  <bullet> A 53-acre addition to High Tor State Park, Rockland County; 
        and
  <bullet> A 231-acre addition to Hudson Highland State Park in Putnam 
        County.

    The acquisition of Sterling Forest in 1998--which, at the time, was 
the largest privately held undeveloped property within the region--was 
accomplished with the assistance of funding from the State of New 
Jersey, private donations and the federal Land and Water Conservation 
Fund. Just as this acquisition was viewed by Congress as worthy of a 
commitment of federal funding to help preserve the water supply for 
millions of residents of the New York Metropolitan area, the 
conservation of the larger Highlands Region is deserving of the federal 
recognition and attention which the Highlands Conservation Act would 
bring to this magnificent area.
    The legislation would authorize appropriations of $10 million 
annually from both the Federal Land and Water Conservation Fund (LWCF) 
for state land purchases, and $1 million annually from the United 
States Department of Agriculture for private landowner assistance 
through the United States Forest Service (USFS).
    Our Department has worked for many years with the USFS and the 
United States Department of Interior to promote the conservation of the 
Highlands region. We worked closely with the USFS on the 2002 Highlands 
Regional Study, which documented the growing need to conserve the 
region's natural resources from the increasing pace of growth that 
threatens to fragment the forests of the area and degrade water 
quality. The State also has worked with the USFS to designate the 
Highlands Region in New York State as a federal Forest Legacy Area, and 
received a $1.5 million grant from the program in 2003 for the 
acquisition of Pochuck Mountain in the Town of Warwick, Orange County. 
The USFS also has provided funding to the State to encourage private 
forest land owners within the region to develop Forest Stewardship 
Management Plans which can be implemented with cost sharing assistance 
from the Forest Land Enhancement Program.
    A portion of the Highlands region east of the Hudson River is 
included in New York City's watershed, another vitally important 
economic and environmental resource that is deserving of federal 
assistance, in addition to the support it is receiving from the City 
and State agencies.
    We worked closely with former United States Congressman Benjamin 
Gilman on the original Highlands legislation and are grateful to 
Congresswoman Kelly for her leadership on the current bill. The basic 
tenet of this legislation is that federal assistance to help conserve 
this region is appropriate, based on the long tradition of local 
decision-making that defines the region. Any acquisitions which would 
be made under this legislation would be done on a voluntary basis with 
willing landowners. Priorities for conservation and private landowner 
assistance would be identified at the local and State level, with the 
input and support of local governments and citizens.
    The Highlands Conservation Act recognizes the importance of the 
multi-state Highlands Region, where one in nine Americans lives within 
a two hour drive. Land use changes spurred by rapid population growth 
within this still largely rural region have placed stresses on the area 
that will diminish its value as a major water supply and a recreational 
destination for the Metropolitan New York area. Taking the prudent 
steps authorized in the Highlands Conservation Act now to encourage 
private landowners to conserve their holdings, while augmenting the 
funding that is available to public land management agencies to acquire 
open space in the region, can help to ensure that this region will 
continue to provide millions of Americans with irreplaceable 
environmental benefits.
    I urge the Subcommittee to approve this legislation, and quickly 
forward it to the full Committee on Energy and Natural Resources for 
its consideration. Thank you.


</pre></body></html>
